<html>
<title> - PROTECTING OUR FUTURE: ADDRESSING SCHOOL SECURITY CHALLENGES IN AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
PROTECTING OUR FUTURE: ADDRESSING SCHOOL SECURITY CHALLENGES IN AMERICA

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2018

                               __________

                           Serial No. 115-69

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
39-941 PDF                  WASHINGTON : 2018                                  
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
Thomas A. Garrett, Jr., Virginia     Bonnie Watson Coleman, New Jersey
Debbie Lesko, Arizona                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Jason Botel, Deputy Assistant Secretary, Office of Elementary 
  and Secondary Education, U.S. Department of Education:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Alan R. Hanson, Principal Deputy Assistant Attorney General, 
  Office of Justice Programs, U.S. Department of Justice:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Robert Kolasky, Deputy Assistant Secretary, Office of 
  Infrastructure Protection, National Protection and Programs 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Panel II

Mr. Jared M. Maples, Director, Office of Homeland Security and 
  Preparedness, State of New Jersey:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Mr. Ben Castillo, Director, Office of School Preparedness and 
  Emergency Planning, Department of Education, State of New 
  Jersey:
  Oral Statement.................................................    32
  Prepared Statement.............................................    35
Ms. Jeanne Hengemuhle, Commanding Officer, Division of Human 
  Resources Section, New Jersey State Police:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39
Mr. Timothy P. Gerity, President, New Jersey Association of 
  School Resource Officers:
  Oral Statement.................................................    41
  Prepared Statement.............................................    42
Mr. Michael Reilly, President, Community Education Council 31, 
  Staten Island, New York:
  Oral Statement.................................................    45
  Prepared Statement.............................................    48

                             FOR THE RECORD

The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Letter from the National Education Association.................    21
  Statement of the New Jersey School Boards Association..........    21

                                APPENDIX

Questions From Ranking Member Donald M. Payne, Jr. for Jason 
  Botel..........................................................    63
Questions From Ranking Member Donald M. Payne, Jr. for Alan R. 
  Hanson.........................................................    64
Questions From Ranking Member Donald M. Payne, Jr. for Robert 
  Kolasky........................................................    64


PROTECTING OUR FUTURE: ADDRESSING SCHOOL SECURITY CHALLENGES IN AMERICA

                              ----------                              


                          Monday, July 9, 2018

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                        Newark, NJ.
    The subcommittee met, pursuant to notice, at 11:04 a.m., in 
the Agile Strategy Lab, Room L70, Central King Building, New 
Jersey Institute of Technology, 100 Summit Street, Newark, NJ, 
Hon. Daniel M. Donovan, Jr. [Chairman of the subcommittee] 
presiding.
    Present: Representatives Donovan [presiding] and Payne.
    Mr. Donovan. The Committee on Homeland Security 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to examine efforts to 
enhance school security. I appreciate the effort taken on 
behalf of all those involved to have this important field 
hearing take place, and I want to thank the New Jersey 
Institute of Technology for hosting us today.
    I also want to thank my colleague and my friend, Don Payne, 
whose home town we are conducting this hearing in, for his 
concern for our children, particularly since I am the father of 
a 3-year-old. Don's concern is my concern, as it is all the 
people here today. So thank you, my friend, for leading us here 
today for this important hearing.
    This is an official Congressional hearing, so we must abide 
by certain rules of the Committee on Homeland Security and the 
House of Representatives. I kindly wish to remind our guests 
today that demonstrations from the audience, including applause 
and verbal outbursts, as well as any use of signs or placards, 
are a violation of the rules of the House of Representatives. 
It is important that we respect the decorum and the rules of 
this committee. I have also been requested to state that 
photography and cameras are limited to accredited press only.
    I now recognize myself for an opening statement.
    School may be out for the summer, but for parents, the 
security of their children while at school is never far from 
their minds. No parent should drop off a child at school and 
fear for his or her safety. But, unfortunately, we have seen 
too many incidents of violence at our schools this year alone.
    Securing our educational institutions and ensuring a safe, 
healthy, and productive learning environment for our children 
is a priority for me and for all of our witnesses here today, 
along with Mr. Payne.
    Whether it be a grant funding, guidance, technical 
assistance, threat and vulnerability assessments, training, or 
exercises, the Federal Government has a number of resources 
available to support States and localities as they work to 
secure our schools.
    Working together in the aftermath of the tragedy at Sandy 
Hook, Federal agencies developed the Guide for Developing High 
Quality School Emergency Operations Plans. Protective Security 
Advisors from the Department of Homeland Security's Office of 
Infrastructure Protection have completed more than 1,000 visits 
with K-12 schools to discuss security.
    In light of the recent tragedies in Florida and Texas, 
Federal agencies have taken an ``all hands on deck'' approach 
to this issue and have made a concerted effort to better 
coordinate the resources available for schools, including 
through the Federal Commission on School Safety.
    The Fiscal Year 2018 Consolidated Appropriations Act 
provided more than $2 billion in funding for grants that can be 
used to enhance the security of our schools through the Title 
IV grants at the Department of Education, STOP School Violence 
Act grants at the Department of Justice, or Homeland Security 
Grant Program at the Department of Homeland Security. However, 
I am concerned that the States and localities may not be aware 
that these funds exist or that they may be used to enhance 
school security.
    This subcommittee has a history of working together, 
including on this very important issue. Along with one of my 
predecessors, the Ranking Member requested a review of Federal 
efforts to assist K-12 schools in conducting emergency planning 
and addressing security needs. Last Congress, he and I 
requested a follow-up review of efforts to assist institutions 
of higher education to address security needs. Both reports 
acknowledged the work that the Departments of Education, 
Justice, and Homeland Security are doing to support schools. 
However, they found that, in many cases, there was a lack of 
awareness of availability of resources and a need to better 
coordinate Federal efforts.
    I am eager to learn more about how the three Federal 
agencies represented here today are working to coordinate the 
various forms of assistance so that they will be most 
beneficial to our State and local partners. I am also 
interested in how these agencies are conducting outreach to 
educate our State and local partners on these resources.
    Efforts to secure schools must begin at the local level, 
and I know that States and localities across the country have 
taken steps to address this important issue, including through 
security enhancements in school buildings, the assignment of 
school resource officers, increased information sharing with 
law enforcement, training and exercises. It will be beneficial 
to hear about the innovative practices our second panel of 
witnesses are undertaking to provide security in their areas.
    I am looking forward to our dialog today and the 
opportunity to work together to ensure the safety and security 
of all of our children.
    [The statement of Chairman Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                              July 9, 2018
    School may be out for the summer, but for parents, the security of 
their children while at school is never far from their minds. No parent 
should drop off a child at school and fear for his or her safety. But, 
unfortunately, we have seen too many incidents of violence at our 
schools this year alone.
    Securing our educational institutions and ensuring a safe, healthy, 
and productive learning environment for our kids is a priority for me 
and for all of our witnesses here today.
    Whether it be grant funding, guidance, technical assistance, threat 
and vulnerability assessments, training, or exercises, the Federal 
Government has a number of resources available to support States and 
localities as they work to secure our schools.
    Working together in the aftermath of the tragedy at Sandy Hook, 
Federal agencies developed the Guide for Developing High Quality School 
Emergency Operations Plans. Protective Security Advisors from the 
Department of Homeland Security's Office of Infrastructure Protection 
have completed more than 1,000 visits with K-12 schools to discuss 
security.
    In light of the recent tragedies in Florida and Texas, Federal 
agencies have taken an ``all hands on deck'' approach to this issue and 
have made a concerted effort to better coordinate the resources 
available for schools, including through the Federal Commission on 
School Safety.
    The Fiscal Year 2018 Consolidated Appropriations Act provided more 
than $2 billion in funding for grants that can be used to enhance the 
security of our schools: Through the Title IV grants at the Department 
of Education, STOP School Violence Act grants at the Department of 
Justice, or Homeland Security Grant Program at the Department of 
Homeland Security.
    However, I am concerned that States and localities may not be aware 
that these funds exist or that they may be used to enhance school 
security.
    This subcommittee has a history of working together, including on 
this very important issue. Along with one of my predecessors, the 
Ranking Member requested a review of Federal efforts to assist K-12 
schools in conducting emergency planning and addressing security needs. 
Last Congress, he and I requested a follow-on review of efforts to 
assist institutions of higher education address security needs. Both 
reports acknowledged the work that the Departments of Education, 
Justice, and Homeland Security are doing to support schools. However, 
they found that, in many cases, there was a lack of awareness of 
available resources and a need to better coordinate Federal efforts.
    I am eager to learn more about how the three Federal agencies 
represented here today are working to coordinate the various forms of 
assistance so they are most beneficial to our State and local partners. 
I am also interested in how these agencies are conducting outreach to 
educate our State and local partners on these resources.
    Efforts to secure schools must begin at the local level and I know 
that States and localities across the country have taken steps to 
address this important issue, including through security enhancements 
to school buildings, the assignment of school resource officers, 
increased information sharing with law enforcement, training, and 
exercises. It will be beneficial to hear about the innovative practices 
our second panel of witnesses are undertaking to provide security in 
their areas.
    I am looking forward to our dialog today and the opportunity to 
work together to ensure the safety and security of our children.

    Mr. Donovan. The Chair now recognizes Ranking Member, my 
friend, the gentleman from New Jersey, Mr. Payne, for any 
statement that he may have.
    Mr. Payne. Thank you, Mr. Chairman, for agreeing first to 
hold this hearing today in northern New Jersey in my 
Congressional district, in my home town. As a parent of 
triplets, the concerns regarding school security have kept me 
up many nights. Tragically, school violence has taken the lives 
of far too many American children. It has been 19 years since 
the Columbine High School massacre which left 13 victims dead, 
and sadly, our children are still incredibly vulnerable while 
attending school. Unfortunately, there has been a significant 
uptick in violence in our Nation's schools in the last 2 
decades.
    The 2012 Sandy Hook shooting left a staggering 20 children 
and 6 adults dead, yet Congress fell short of passing 
legislation to combat gun violence in schools.
    This year there was about one school shooting a week in 
this country, including the shooting in Marjory Stoneham 
Douglas High School in Parkland, Florida that left 14 children 
and 3 teachers dead. Still, the response from Congress and the 
Trump administration has been lacking.
    Beyond making more grant funding available, Congress has 
done little to address the issue of keeping guns out of the 
hands of bad actors targeting schools. Even funding is not 
guaranteed. As we speak, the House Appropriations Committee is 
planning to consider an education spending bill that would cut 
school safety spending by $110 million. The idea of cutting 
financial support around school security amid the uptick in 
violence in and around schools is unconscionable. It is also 
worth noting that these proposed cuts come at a time when 
Congress is increasing spending for its own security. I hope my 
Homeland Security Committee colleagues will join me in opposing 
the cuts to school security funding.
    I hope to hear today from our witnesses about what Congress 
needs to respond to the threat of school violence with the 
urgency needed. Additionally, in looking at the issue of school 
safety, we need to be mindful that many children in urban 
settings experience safety threats daily which impacts their 
school performance. We need to incorporate threat of violence 
to children in urban areas into the conversation of school 
safety.
    I have introduced legislation, H.R. 3613, the Safer 
Neighborhoods Gun Buy-Back Act of 2017, to address neighborhood 
violence and to keep weapons off the streets. I would welcome 
the support of all the Members on this important bill.
    While many challenges remain at the Federal level, I am 
pleased to say that New Jersey is one of the leading States in 
school safety. New Jersey has implemented all the major 
security measures identified by the Secure Schools Alliance. 
Further, New Jersey has recently passed a series of gun safety 
measures, making it a leader in gun reform. It is my hope that 
New Jersey will continue to set the example in this area.
    In my time on the committee, this is the first hearing that 
we have had on this issue of school safety. Mr. Chairman, I 
hope we can continue to work together to ensure that our 
committee will see this issue as a homeland security priority.
    I want to thank all the witnesses for attending today's 
hearing. I look forward to hearing what each of you are doing 
to address and further protect children in all communities 
around the country facing challenges around school violence. We 
must do more to protect the next generation. This country and 
communities like the ones I serve are counting on us.
    With that, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                              July 9, 2018
    As a parent of triplets, the concerns regarding school security has 
kept me up many nights. Tragically, school violence has taken the lives 
of far too many American children. It has been 19 years since the 
Columbine High School massacre, which left 13 victims dead, and sadly 
our children are still incredibly vulnerable while attending school.
    Unfortunately, there has been a significant uptick in violence in 
our Nation's schools in the last 2 decades. The 2012 Sandy Hook 
shooting left a staggering 20 children and 6 adults dead, yet Congress 
fell short of passing legislation to combat gun violence in schools. 
This year, there was about 1 school shooting a week in this country, 
including the shooting at Marjory Stoneman Douglas High School in 
Parkland, Florida that left 14 children and 3 teachers dead. Still, the 
response from Congress and the Trump administration has been lacking.
    Beyond making more grant funding available, Congress has done 
little to address the issue of keeping guns out of the hands of bad 
actors targeting schools. Even funding is not guaranteed. As we speak, 
the House Appropriations Committee is planning to consider an education 
spending bill that would cut school safety pending by $110 million.
    The idea of cutting financial support around school security amid 
the uptick in violence in and around schools is unconscionable. It is 
also worth noting that these proposed cuts come at a time when Congress 
is increasing spending for its own security. I hope my Homeland 
Security Committee colleagues will join me in opposing cuts to school 
security funding. I hope to hear today from our witnesses about what 
Congress needs to respond to the threat of school violence with the 
urgency needed.
    Additionally, in looking at the issue of school safety, we need to 
be mindful that many children in urban settings experience safety 
threats daily, which impacts their school performance. We need to 
incorporate violence and the threat of violence children experience in 
urban areas into the conversation of school safety.
    I have introduced legislation (H.R. 3613, the Safer Neighborhoods 
Gun Buyback Act of 2017) to address neighborhood violence and keep 
weapons off the streets. I would welcome the support of all Members on 
this important bill.
    While many challenges remain at the Federal level, I am pleased to 
say that New Jersey is one of the leading States in school safety. New 
Jersey has implemented all the major school security measures 
identified by the Secure Schools Alliance. Further, New Jersey has 
recently passed a series of gun safety measures, making it a leader in 
gun reform. It is my hope that New Jersey will continue to set the 
example in this area.
    In my time on the committee this is the first hearing that we have 
had on the issue of school safety. Mr. Chairman, I hope we can continue 
to work together to ensure that our committee will see this issue as a 
homeland security priority.
    I thank all the witnesses for attending today's hearing. I look 
forward to hearing what each of you are doing to address and further 
protect children in all communities around the country facing 
challenges around school violence. We must do more to protect the next 
generation. This country and communities, like the ones I serve, are 
counting on us.

    Mr. Donovan. The gentleman yields.
    Although we are the only two Members of Congress here, 
Members of the committee may be submitting opening statements 
and questions, and they may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              July 9, 2018
    Good morning. I would like to thank the Subcommittee Chairman and 
Ranking Member for holding today's hearing on school security.
    School violence continues to take the lives of so many young 
people, leaving behind devastated families and communities. 
Unfortunately, Congress has refused to address this issue head-on, 
despite the devastating increase in school shootings over the last 20 
years, including at least 1 shooting about every week of the 2018 
school year.
    In the aftermath of the massacre at Marjory Stoneman Douglass High 
School in Parkland, Florida, where 17 people were killed, President 
Trump made several proposals geared toward improving school 
preparedness. One of those proposals called for the establishment of a 
Federal Commission on School Safety, a group comprised of Cabinet 
Secretaries tasked with developing school safety strategies.
    Predictably, the Trump administration's school safety commission 
has stated that it will not study how access to guns affects school 
violence, which is completely senseless. Why are we wasting time 
discussing school violence when the Federal Commission on School Safety 
will not engage on the common factor in every catastrophic school 
shooting? The Commission's willful ignorance has caused students and 
parents alike to criticize the Commission's efforts. I hope that the 
administration will wake up and reconsider its stance on research guns 
and school violence.
    In the mean time, Congress needs to do its part to protect children 
in schools, which includes making sure there are adequate resources for 
communities to combat school violence and enacting common-sense gun 
safety legislation. I hope today's hearing will serve a launching point 
for meaningful action in school safety and security by the Committee on 
Homeland Security.
    I look forward to hearing from our witnesses today and learning how 
Congress can be a better partner in solving the tragic problem of 
school violence.
    I yield back the balance of my time.

    Mr. Donovan. We are pleased to have two distinguished 
panels of witnesses before us today on this important topic.
    The first panel includes Mr. Jason Botel, principal deputy 
assistant secretary of the Department of Education's Office of 
Elementary and Secondary Education. Welcome, sir.
    Mr. Alan Hanson, principal deputy assistant attorney 
general in the Department of Justice's Office of Justice 
Programs. Welcome, sir.
    Mr. Robert Kolasky, deputy assistant secretary for the 
Office of Infrastructure Protection in the Department of 
Homeland Security's National Protection and Programs 
Directorate. Welcome, sir.
    Thank you all for being here today. The witnesses' full 
written testimony will appear in the record.
    The Chair now recognizes Mr. Botel to testify in his 
opening statement.

STATEMENT OF JASON BOTEL, DEPUTY ASSISTANT SECRETARY, OFFICE OF 
    ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Botel. Thank you, Chairman Donovan and Ranking Member 
Payne. Thank you for the opportunity to appear before you today 
to share what we at the U.S. Department of Education are doing 
to help States, school districts, and schools keep our children 
safe.
    The violent incidents occurring in our Nation's schools in 
recent months and years, as Secretary DeVos has observed, are 
``devastating reminders that our Nation must come together to 
address the underlying issues that create a culture of 
violence.'' Today, I am here to share what the Department has 
been doing to promote school safety and security and what we 
have learned about what works.
    First, over the past 5 years, following the terrible 
tragedy at Sandy Hook Elementary School in Newtown, 
Connecticut, the Department has maintained a portfolio of 
competitive grant programs designed to help States and school 
districts improve school climate and safety. Thanks to 
Congress, which provided increased funding for school safety in 
fiscal year 2018, later this summer we will make new awards 
under two of these programs.
    First, we expect to make grants to States for school 
emergency management to an estimated 16 States. These grants 
will build State and local capacity to develop and implement 
high-quality school emergency operations plans.
    Second, the Department will make new State-level school 
climate transformation grants to provide technical assistance 
and other support for local implementation of evidence-based 
behavioral practices to improve school climate and behavioral 
outcomes for all students.
    You also will be pleased to know that on July 1, we awarded 
$1.1 billion in State formula grants under the Student Support 
and Academic Enrichment Grants authorized by Title IV, Part A 
of the Elementary and Secondary Education Act, ESEA. This was a 
$700 million increase over the $400 million provided for Title 
IV, Part A in fiscal year 2017, and will provide nearly every 
school district in the country the significant new resources 
that can be used for locally-determined school safety 
activities.
    To support these efforts, the Department is developing 
additional guidance on how States, districts, and schools can 
use Title IV, Part A funds to promote school safety and 
security. In addition, the Department's senior leadership has 
been personally involved in reaching out to schools and 
communities affected by violence. For example, after the tragic 
school shooting at Marjory Stoneham Douglas High School in 
Parkland, Florida, Secretary DeVos met with the superintendent 
and principal to offer support from the Department. Following 
the shootings at Santa Fe High School in Texas, Deputy 
Secretary Mick Zais and I made a similar visit to meet with the 
superintendent and principal in Santa Fe. In each case, the 
Department followed up with material support, making $1 million 
awards to both districts under our Project SERV program, which 
helps districts and schools restore the learning environment 
following a traumatic natural disaster or violent incident.
    Most importantly, at least for our long-term efforts to 
reduce the incidence of school violence and keep students safe, 
the President established the Federal Commission on School 
Safety, which is responsible for providing evidence-based 
actionable recommendations to keep students safe and secure at 
school. Under Secretary DeVos' leadership, the Commission held 
its initial meeting on March 28 and immediately arranged a 
series of meetings, field visits, and listening sessions that 
over the past 3 months have generated input from students, 
parents, teachers, school safety personnel, administrators, law 
enforcement officials, mental health professionals, school 
counselors, security professionals, and researchers. These 
sessions have explored evidence-based and promising approaches 
to safety and security that include building the social-
emotional competencies of students and staff, developing 
student character, preventing bullying via social media, 
engaging school safety personnel in schools, studying the 
effects of violent entertainment and media coverage of mass 
shootings, and improving school climate.
    At the Commission's request, the Department also is 
considering conducting a survey of all State educational 
agencies on how they are complying with the Unsafe School 
Choice option requirement in Section 8532 of the ESEA. This 
long-standing provision of law requires each State to have a 
State-wide policy that any student who attends a persistently 
dangerous school or who is the victim of a violent crime while 
on school grounds be allowed to transfer to a safe public 
school in the same school district. Such a survey could help 
highlight both weaknesses and best practices related to 
implementation of this important provision of the ESEA while 
also helping to identify ways that the Department can and 
should provide technical assistance in this area.
    The Commission will continue to collect information and 
data over the next few months on evidence-based interventions 
and best practices in a wide range of areas related to school 
climate and student safety. Commission members then will review 
this information, identify the most promising and actionable 
recommendations for State and local leaders responsible for 
school safety, and deliver its final report to the President.
    The Department of Education will always stand ready to do 
everything possible to help districts and schools recover from 
violent incidents. However, as the President has recognized in 
creating the Commission, our goal must be to prevent further 
violence in our schools. This hearing is yet another 
demonstration that Congress shares this goal, and I am 
confident that by working together with State and local leaders 
across the Nation, we will be successful in achieving it.
    Thank you again for this opportunity to discuss this 
important issue. I look forward to answering any questions you 
might have.
    [The prepared statement of Mr. Botel follows:]
                   Prepared Statement of Jason Botel
    Chairman Donovan, Ranking Member Payne, and other Members of the 
subcommittee, thank you for the opportunity to appear before you today 
to share what we at the U.S. Department of Education are doing to help 
States, school districts, and schools keep our children safe.
    Mass violent incidents occurring in our Nation's schools in recent 
months and years, as Secretary DeVos noted, are ``devastating reminders 
that our Nation must come together to address the underlying issues 
that create a culture of violence.'' Today, I am here to share what the 
Department has been doing to promote school safety and security and 
what we have learned about what works.
    First, with the support of Congress, for several years the 
Department of Education has been actively supporting States and school 
districts in promoting school safety and security, including:
  <bullet> Since 2014, funding States with the Grants to States for 
        School Emergency Management Program to increase their capacity 
        to assist districts in developing and implementing high-quality 
        school emergency operations plans. Funding has been provided to 
        26 States thus far. States that have not previously received a 
        grant under this program will receive a priority for a grant in 
        fiscal year 2018. We expect to make 16 new awards.
  <bullet> Since 2014, funding 12 States and 71 districts with School 
        Climate Transformation Grants that support evidence-based 
        behavioral practices to improve school climate and behavioral 
        outcomes for all students, a key aspect to violence prevention.
  <bullet> Since 2014, funding 22 school districts with Project Prevent 
        Grants to increase their capacity to identify, assess, and 
        serve students who have been exposed to pervasive violence; 
        help to ensure that affected students are offered mental health 
        services for trauma or anxiety; support conflict resolution 
        programs; and implement other school-based violence prevention 
        strategies that will reduce the likelihood that students will 
        commit violent acts in the future.
  <bullet> Over the past 3 years, funding more than 30 awards to 
        States, school districts, and institutions of higher education 
        with Project School Emergency Response to Violence (SERV) 
        grants to help restore the learning environment after it has 
        been disrupted by a violent or traumatic crisis, including to 
        support the provision of mental health services after a 
        learning environment has been disrupted by violence or an 
        otherwise traumatic crisis.
  <bullet> Over the past 8 years, funding to the National Center on 
        Safe Supportive Learning Environments to provide technical 
        assistance and support to States, school districts, and schools 
        across this country in helping to provide safe and healthy 
        school environments that prevent substance abuse, support 
        student academic success, and prevent violence. Specifically, 
        the Center supports States, school districts, and schools in 
        using the U.S. Department of Education School Climate Surveys, 
        a suite of free, high-quality and adaptable school climate 
        surveys and an associated web-based platform. The School 
        Climate Surveys measure 5 areas of school safety that can be 
        used to assess school safety needs.
  <bullet> Since 2004, funding the Readiness Emergency Management for 
        Schools (REMS) Technical Assistance Center, which supports 
        school districts, schools, and institutions of higher education 
        across the country in preventing, protecting, mitigating, 
        responding, recovering from emergencies, and school shootings. 
        The REMS Technical Assistance Center has guided emergency 
        planning and helped schools consider what technologies are 
        available and the role of security personnel.
    Second, since the Every Student Succeeds Act (ESSA) was signed into 
law, the Department has been planning for and actively implementing the 
Title IV, Part A, Student Support and Academic Enrichment program. This 
program is intended to improve students' academic achievement by 
increasing the capacity of State educational agencies, local 
educational agencies, and local communities to provide all students 
with access to a well-rounded education; improve school conditions, 
including school safety and security, for student learning; and improve 
the use of technology to improve the academic achievement and digital 
literacy of all students. The Department issued non-regulatory guidance 
on Title IV, Part A, in 2016 that addressed issues relating to 
improving school conditions for learning, and we are currently 
developing additional guidance on how States, districts, and schools 
can use Title IV, Part A funds to promote school safety and security.
    Third, after the tragic school shooting at Marjory Stoneman Douglas 
High School in Parkland, Florida, Secretary DeVos met with the school 
superintendent and principal to offer support from the Department. 
Deputy Secretary Mick Zais and I visited Santa Fe High School in Texas 
to meet with the superintendent and principal to do the same. After 
visits to Parkland and Santa Fe, the Department provided SERV Grants, 
in the amount of $1 million each, to both school districts.
    Soon after the Parkland shooting, the President established the 
Federal Commission on School Safety and appointed Secretary Betsy DeVos 
as chair of the Commission. The Commission is responsible for providing 
meaningful and actionable recommendations to keep students safe and 
secure at school. By way of a series of formal meetings, listening 
sessions, and field visits, the members of the Commission are gathering 
information from a long list of stakeholders including students, 
parents, teachers, school safety personnel, administrators, law 
enforcement officials, mental health professionals, school counselors, 
security professionals, and researchers.
    The Commission held an organizational meeting on March 28, 2018 and 
arranged a series of meetings, site visits, and listening sessions 
which have occurred over the last several months. Formal Commission 
meetings provide a forum for presentations from subject-matter experts, 
individuals affected by school violence, and other key stakeholders. 
Listening sessions provide opportunities for the public to be heard and 
provide recommendations to the Commission. Field visits involve travel 
to schools and other sites to observe and learn first-hand about 
current best practices in school safety.
    On May 17, 2018, the Commission hosted a discussion to learn from 
survivors and family members affected by the mass shootings at 
Columbine High School, Virginia Tech University, Sandy Hook Elementary 
School, and Marjory Stoneman Douglas High School, in addition to 
authors of official reports following incidents of school violence.
    The first field visit occurred on May 31, 2018, at Frank Hebron-
Harman Elementary School in Hanover, MD. Commission members and their 
representatives heard from administrators, principals, teachers, 
students, and a National expert about Positive Behavioral Interventions 
and Supports (PBIS), a framework designed to improve social, emotional, 
and academic outcomes for all students.
    On June 6, 2018, the Commission hosted a public listening session 
at the Department's headquarters. In total, 62 individuals shared their 
views on school safety. The forum was broadcasted on-line, and 
information was publicized on how members of the public can share 
additional comments with the Commission.
    On June 21, 2018, the Commission held a formal meeting at the White 
House. The meeting titled, ``The Ecology of Schools: Fostering a 
Culture of Human Flourishing and Developing Charter,'' featured three 
different panels of experts focusing on effects of entertainment, 
media, cyber bullying and social media on violence and student safety.
    On June 26, 2018, in Lexington, Kentucky, the Commission conducted 
roundtable discussions with State and local officials as well as 
gathered information from the public on how schools, districts, 
institutions of higher education, and other local and State government 
agencies can improve school safety.
    These sessions have explored evidence-based and promising 
approaches to school safety and security that include:
  <bullet> Building the social emotional competencies of students and 
        staff
  <bullet> Developing student character
  <bullet> Preventing bullying via social media
  <bullet> Engaging school safety personnel in schools
  <bullet> Studying the effects of violent entertainment and media 
        coverage of mass shootings, and
  <bullet> Improving school climate.
    At the Commission's request, the Department is also considering a 
survey to all State educational agencies on how they are complying with 
the Unsafe School Choice Option requirement in section 8532 of ESSA, 
which requires that each State that receives funds under ESSA (and all 
States choose to do so) have a State-wide policy that any student who 
attends a ``persistently dangerous'' school, or who is the victim of a 
violent crime while on school grounds, be allowed to attend a safe 
public school in the same school district. A review of States' Unsafe 
School Choice Option policies is necessary to ensure that State 
policies are consistent with the law's requirements and to identify 
ways that the Department can and should provide technical assistance in 
this area.
    The information and data collected will inform the Commission's 
recommendations and best practices, which will be included in the final 
report.
    Based on the best available research and experience from 
implementing these activities, the Department has learned that 
prevention is key: Schools need to be prepared and provide needed 
student supports. For example, we have received reports from school 
district leaders that while schools may have experienced a traumatic 
incident, the emergency planning training they received from the REMS 
TA Center helped prevent or lessen the trauma the school experienced 
had they not been prepared to respond to these incidents.
    Working to improve school climate, build social emotional skills 
and provide access to mental health services; knowing the signs of 
youth violence; and being prepared with emergency protocols can help to 
identify and reduce safety and security risks in schools. Through the 
activities I have described today, we will continue to work tirelessly 
with our State and local school partners to ensure that children are 
safe and secure when they are at school.
    Thank you again for providing an opportunity for us to discuss this 
important issue. I look forward to answering any questions you may 
have.

    Mr. Donovan. Thank you.
    The Chair now recognizes Mr. Hanson for his opening 
statement.

    STATEMENT OF ALAN R. HANSON, PRINCIPAL DEPUTY ASSISTANT 
 ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT 
                           OF JUSTICE

    Mr. Hanson. Thank you, Chairman Donovan, and thank you, 
Ranking Member Payne. It is a privilege to be here in Newark to 
tell you about the research and grant programs we are 
supporting at the Department of Justice to prevent and reduce 
school violence.
    My name is Alan Hanson, and I am the principal deputy 
assistant attorney general for the Office of Justice Programs. 
OJP is the funding, policy, research, and statistical arm of 
the Justice Department. We work closely with our partners at 
the COPS Office to support State, local, and Tribal public 
safety efforts. As you will hear, OJP and the COPS Office are 
devoting substantial resources to addressing the crisis of 
school violence in America.
    First of all, I commend the Members of this committee for 
appreciating the urgency of this issue and for taking steps to 
meet the challenges our schools and communities are facing. 
Congress has already taken a very important step by including 
the Students, Teachers, and Officers Preventing School Violence 
Act, also known as the STOP School Violence Act, in this 
spring's omnibus spending bill.
    As you well know, the Act authorizes funds to address 
school violence and improve school security. Of the $75 million 
appropriated under the law, $50 million will be administered by 
OJP's Bureau of Justice Assistance in the form of grants 
through States, local units of government, and Tribal 
governments. The balance of the funding is being administered 
by the COPS Office.
    BJA recently released two grant solicitations: No. 1, the 
BJA STOP Prevention Training and Response to Mental Health 
Crisis Program, which will train teachers to prevent student 
violence against others and self and provide specialized 
training for school officials and responding to mental health 
crises; it will also provide education to students with the 
intent to prevent violence against others and self.
    The second program, the BJA STOP Threat Assessment and 
Technology Reporting Program, will help States, communities, 
and Tribes develop threat assessments and create crisis 
intervention teams. Additionally under this program, projects 
will be funded to develop and implement anonymous reporting 
methods such as mobile applications, hotlines, or websites.
    We are requiring that these programs be evidence-based and 
involve cooperation with law enforcement, and we plan to 
distribute grants evenly across geographic regions. Grantees 
will be required to put up a 25 percent cash or in-kind match. 
Federal resources will fund the other 75 percent of each 
project.
    The $25 million being administered by the COPS Office will 
go toward helping States, Tribes, and units of local government 
purchase equipment and technology, provide training, and take 
other measures to improve school security. These new 
investments will build on previous COPS efforts which have 
included funding for almost 7,400 school resource officers 
across the country.
    It is important to mention that OJP has already been 
working to understand the causes of school violence and to find 
research-based solutions to school violence problems. Our 
National Institute of Justice has funded more than 90 research 
projects totaling nearly $250 million under the Comprehensive 
School Safety Initiative. These projects cover a wide range of 
topics, from threat assessments and school discipline to 
bullying, mental health, and effective use of school resource 
officers. More than half of these projects examine the impact 
of interventions on shootings and other forms of school 
violence.
    The first of these research grants were made in 2015, with 
most being carried out over a period of 3 to 5 years. We expect 
the first of the final reports to become available in 2019, 
with further releases in the 3 to 4 years that follow. Once 
they are available, we expect those findings to be an 
invaluable source of information for school administrators, law 
enforcement officials, and other practitioners.
    In the mean time, information on existing evidence-based 
school safety efforts is available at our research 
clearinghouse, CrimeSolutions.gov.
    We are also carrying out research through NIJ's Firearm 
Violence Portfolio. Several research programs are under way 
that we hope will give us a better understanding of mass 
violence and illegal firearm use by youth. Our goal is to 
develop evidence-based strategies that can be used by 
communities throughout the Nation.
    School violence has claimed too many lives and robbed our 
Nation of far too much potential. I am grateful to the 
committee's efforts to secure the resources we need to tackle 
this challenge. DOJ is committed to protecting students, 
faculty, and staff, to making our schools the safe havens of 
learning that they were intended to be.
    I thank you for your time and look forward to answering any 
questions you might have.
    [The prepared statement of Mr. Hanson follows:]
                  Prepared Statement of Alan R. Hanson
                              July 9, 2018
    Chairman Donovan, Ranking Member Payne, Members of the committee, 
thank you for this opportunity to discuss research-based approaches to 
preventing school violence and school safety grant programs 
administered by the Department of Justice (Department). My name is Alan 
Hanson, and I am the principal deputy assistant attorney general for 
the Office of Justice Programs (OJP).
    The Consolidated Appropriations Act of 2018, enacted on March 23 of 
this year, included the Student, Teachers, and Officers Preventing 
(STOP) School Violence Act of 2018, which authorizes funds to address 
school violence and improve school security by providing students, 
school personnel, and community members with the tools they need to 
recognize, respond quickly to, and prevent acts of violence.
    OJP's grant programs and initiatives that address school safety are 
administered by several components: The National Institute of Justice 
(NIJ), the Bureau of Justice Assistance (BJA), the Office of Juvenile 
Justice and Delinquency Prevention (OJJDP), and the Office for Victims 
of Crime (OVC). These offices collaborate with other Department 
components, like the Office of Community Oriented Policing Services 
(COPS) Office, and Federal agencies to identify and develop school 
safety approaches, with the goal of reducing crime and ensuring public 
safety.
    The Consolidated Appropriations Act of 2018 also provides $75 
million to the STOP School Violence Act program to address school 
violence. BJA received $50 million to provide grants to States, units 
of local government, and Indian tribes. These grants are used for the 
training of teachers and the education of students to prevent student 
violence, and to support threat assessments, crisis intervention teams, 
and the use of technology for anonymous reporting. The balance ($25 
million) was provided to the COPS Office to provide grants for law 
enforcement training and coordination to prevent school violence and 
for a variety of school safety equipment (e.g., metal detectors, locks, 
lighting) and alerting technologies.
    To address the legislative goals of the STOP School Violence Act, 
OJP developed two solicitations. The first is the BJA STOP Prevention 
Training and Response to Mental Health Crisis Program and the second is 
the BJA STOP Threat Assessment and Technology Reporting Program. Both 
solicitations opened on June 7, 2018, with a closing date of July 23, 
2018.
    The BJA STOP Prevention Training and Response to Mental Health 
Crisis Program will fund States, units of local government, and 
Federally-recognized Indian Tribes to provide training to teachers and 
administrators. The training will help teachers and administrators 
identify and react to potential acts of violence and situations that 
may involve mental health issues. The program will also help educate 
students on violence prevention measures. This could include reporting 
potential threats and situations that students believe could lead to 
acts of violence.
    The BJA STOP Threat Assessment and Technology Reporting Program 
will provide funding to States, units of local government, and 
Federally-recognized Indian Tribes to develop and conduct threat 
assessments and implement crisis intervention teams. These efforts will 
encourage cooperation and partnership with local/Tribal law enforcement 
and the community to assist with the proposed programs. Under this 
solicitation, grantees can apply for funds to develop and implement a 
reporting program that can include mobile applications, web-based 
programs, or hotlines intended to ensure that any individual reporting 
can remain anonymous. This technology may be useful in sharing vital 
data with law enforcement to prevent incidents.
    Funding under the COPS Office may be used for coordination with 
local and Tribal law enforcement; training for local and Tribal law 
enforcement officers to prevent school violence against others and 
self; the placement and use of metal detectors, locks, lighting and 
other deterrent measures, or target hardening; the acquisition and 
installation of technology for expedited notification of local and 
Tribal law enforcement during an emergency; and any other measures that 
may provide a significant improvement in security.
    The Act requires that grants be evidence-based and have, to the 
extent practicable, an equitable geographic distribution among the 
regions of the United States and among urban, suburban, and rural 
areas. To ensure that there is an equitable distribution, the BJA 
solicitations are organized by categories based on population. This 
allows applicants to be evaluated with others whose jurisdictions are 
similar in size and face similar challenges. The Act also states that 
the Federal Government can provide only 75 percent of the funding for 
each project, thus requiring a 25 percent cash or in-kind match.
    The Act stresses coordination and partnership with local and Tribal 
law enforcement and emphasizes evaluation as a program element. All 
programs must reflect an evidence-based approach. Performance measures 
will help the Department identify successful programs and practices 
that can be shared Nation-wide.
    Prior to the STOP School Violence programs created this year, NIJ 
was actively involved in school safety research. Since 2014, NIJ's 
primary investments in school safety have been through the 
Comprehensive School Safety Initiative (CSSI). CSSI is a research-
focused initiative designed to produce knowledge and identify evidence-
based programs that can potentially benefit K-12 schools and school 
districts across the Nation for years to come.
    Congress first funded CSSI in 2014 in the wake of the tragic 
shooting at Sandy Hook Elementary School in Connecticut. Altogether, 
CSSI was funded from fiscal year 2014 to fiscal year 2017, and that 
funding resulted in more than 90 CSSI grant-funded projects totaling 
nearly $250 million.
    CSSI projects build on other research, supported by NIJ and others, 
to inform school safety efforts. CSSI projects cover a wide range of 
topics, including school shootings, threat assessment, school resource 
officers and police, mental and behavioral health, emergency operations 
planning, school discipline, bullying, technology, and school climate. 
Fifty-five percent of CSSI projects examine the impact of interventions 
on shootings and other forms of school violence. Rigorous research 
designs are a hallmark of these projects; almost half use randomized 
experimental designs.\1\
---------------------------------------------------------------------------
    \1\ Information on all CSSI-funded projects is available here: 
https://nij.gov/funding/awards/pages/awards-
list.aspx?tags=Comprehensive%20School%20Safety%20Initiative.
---------------------------------------------------------------------------
    CSSI funding supports evaluations and research on the causes and 
consequences of school violence. CSSI projects, like any research-
focused program, typically take 3 to 5 years to complete, and to ensure 
that they produce scientifically valid results that can be translated 
into effective policy. The earliest projects started in 2015, and only 
a small number have reached completion; therefore, no final reports 
have yet been published. The first final reports will be available 
within the next year or so with others to follow in the next few years.
    NIJ maintains CrimeSolutions.gov to help practitioners and policy 
makers understand what works in justice-related programs and practices. 
CrimeSolutions.gov is a valuable tool for school administrators and 
others to have for a more comprehensive understanding about evidence-
based school safety efforts. Because this information is not static, 
CrimeSolutions.gov will be continuously updated as results from CSSI 
projects and other research efforts become available.
    In addition to CSSI, two other NIJ research portfolios will 
contribute to our understanding about keeping students safe: (1) The 
NIJ firearm violence portfolio will contribute to our understanding of 
mass shooting incidents and perpetrators as well as the illegal use of 
firearms by youths; and (2) the NIJ victims of crime portfolio includes 
a study examining the short- and long-term impacts of school shootings.
    OVC has the capacity to support schools that wish to plan for, and 
need to respond to, mass violence and terrorism. Following any incident 
of mass violence, including school shootings, the Federal Bureau of 
Investigation's Victim Services Division collaborates with OVC on 
emergency response as well as immediate and long-term community needs. 
OVC's ``Helping Victims of Mass Violence & Terrorism Toolkit'' is a 
comprehensive resource to aid communities in the aftermath of incidents 
of mass violence. In addition, through OVC's Training and Technical 
Assistance Center, consultants can provide free technical assistance 
for schools and communities to better prepare them for these incidents.
    Through the Antiterrorism and Emergency Assistance Program (AEAP), 
OVC supports victims and jurisdictions that have experienced incidents 
of domestic terrorism or mass violence. In fact, OVC has made AEAP 
awards following incidents of mass shootings violence at Virginia Tech, 
and Sandy Hook Elementary School. OVC is also in consultation regarding 
recent incidents that occurred in Parkland, Florida; Santa Fe, Texas; 
and Marshal County, Kentucky.
    OJJPD also funds Gang Resistance Education and Training, an 
evidence-based and effective gang and violence prevention program built 
around school-based, law enforcement officer-instructed classroom 
curricula. The Department's National Gang Center, jointly funded by 
OJJDP and BJA, disseminates information, knowledge, and outcome-driven 
practices that engage and empower those in local communities with 
chronic and emerging gang problems.
    This information helps create comprehensive solutions to prevent 
gang violence, reduce gang involvement, and suppress gang-related 
crime. Additionally, OJJDP supported the International Association of 
Chiefs of Police in the development of a tool kit on Enhancing Police 
Responses to Children Exposed to Violence, which may be helpful to law 
enforcement officials addressing school shootings.
    The Department is also collaborating with other Federal agencies 
and continues to consult with key school safety stakeholders across the 
country to learn about what challenges they face when it comes to 
keeping their schools and students safe. Findings from NIJ-funded 
studies will inform our decisions on how to best design future programs 
and equip schools and communities with the necessary tools to address 
and avoid future tragedies. Our goal is to develop evidence-based 
programs and comprehensive strategies that can be replicated throughout 
the Nation.
    The Department's commitment to ensuring safety in our schools 
remains a top priority. We are committed to addressing these issues and 
will continue to work with Congress, States, and communities to 
maintain supportive and safe environments for our children.
    Thank you again for this opportunity to discuss these programs, and 
I look forward to addressing your questions.

    Mr. Donovan. Thank you, Mr. Hanson.
    The Chair now recognizes Mr. Kolasky for his opening 
statement.

STATEMENT OF ROBERT KOLASKY, DEPUTY ASSISTANT SECRETARY, OFFICE 
OF INFRASTRUCTURE PROTECTION, NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kolasky. Thank you. Chairman Donovan, Ranking Member 
Payne, thank you for today's opportunity to testify before you 
regarding the Department of Homeland Security's on-going 
efforts to improve school security and preparedness in the face 
of the horrific massacres that we have seen in Florida and 
Texas earlier this year. Protecting against such horrors must 
be part of homeland security.
    In America, children should not have to worry about their 
safety when in school, and yet our Nation has witnessed and 
mourned the deaths and injuries of dozens of students and 
teachers. This year alone, there have been two mass shootings--
in Parkland, Florida and Santa Fe, Texas--that remind us that 
we must do more to protect our students.
    DHS's primary mission is to safeguard the American people. 
As the acting assistant secretary for the Office of 
Infrastructure Protection and the National Protection Programs 
Directorate, I help lead National efforts to reduce the risk to 
the Nation's critical infrastructure to include efforts to 
enhance security at commercial facilities and public gatherings 
around the country. These efforts have provided DHS with deep 
expertise and extensive capabilities around security that can 
be leveraged by schools to improve the safety of students and 
teachers.
    While DHS does not and should not provide direct security 
to schools, we do support those organizations with direct 
missions to keep schools safe and secure. I have worked with 
critical infrastructure owners and operators, which has endowed 
us with the know-how to elevate the overall level of security 
around the country. We are using this experience to support a 
unified response to incidents and to better equip the 
community-level response when prevention efforts falter.
    We share our tools and knowledge with State, local, Tribal, 
and territorial partners, the law enforcement community, first 
responders, school administrators, teachers, students, parents, 
and other stakeholders who are directly connected to the 
Nation's more than 130,000 kindergartens through high schools, 
K-12. This is accomplished through numerous DHS resources and 
programs.
    These critical initiatives include the Hometown Security 
Initiative through which the Department works with schools and 
community leaders to proactively think about security and 
implement security measures. The Department's protective 
security advisors, as you mentioned at the beginning, Chairman 
Donovan, perform security-focused community-level outreach at 
educators' conferences, school board meetings, and within the 
scope of existing resources help schools conduct security 
vulnerability assessments.
    Based on that work, DHS recently issued a K-12 security 
practice guide that can be used by communities to deter 
threats, address hazards and risks, and minimize gun violence 
incidents in our Nation's schools. We will be providing these 
guides to schools and support organizations, and it will also 
be publicly available through the Hometown Security Initiative 
outreach website.
    We are doing all of this work as part of the Federal 
Commission on School Safety, which is charged with quickly 
providing meaningful and actionable recommendations and best 
practices to keep students safe at school. The Commission, 
which is chaired by Secretary DeVos at the U.S. Department of 
Education, also includes my Secretary, Kirstjen Nielsen, 
Attorney General Jeff Sessions, and HHS Secretary Alex Azar.
    To facilitate the Department's participation in the 
Commission and enable coordination of future efforts to enhance 
school security across DHS, the Department established a School 
Security Working Group, jointly led by NPPD, my organization, 
the Federal Emergency Management Agency, and the Office of 
Partnership and Engagement.
    Since the attack at Marjory Stoneham Douglas High School in 
February 2018, the Department has also conducted over 200 
engagements with State and local representatives, including 
schools, State committees, State school security forums, and 
school districts. DHS supported the Dallas Independent School 
District and the International Association of Venue Managers 
with a community outreach program, See Say Do, to provide 
Dallas schools with the tools, training, and resources to 
prevent an active-shooter incident through increased 
situational awareness.
    DHS has also been a leader in the Arizona Fusion Center, 
which has partnered with the Phoenix Police Department's Threat 
Mitigation Unit and other Federal agencies, on the development 
of a community liaison program which is responsible for 
maintaining strong working relationships with private-sector 
partners. The community liaison program is now working with 
school districts to provide active-shooter training and to 
foster open lines of communication between schools and the 
public safety community.
    DHS has also participated in the Marjory Stoneham Douglas 
High School Public Safety Commission meeting, which is part of 
an effort to analyze information from the school shooting and 
other mass violence incidents in the State of Florida and 
address recommendations and system improvements.
    I use these examples not to try to provide a comprehensive 
picture of all that the Department is doing but instead to 
bring tangible examples of how our work is supporting local 
communities. There are dozens of others like this.
    So in summary, recognizing that most of the Nation's school 
administrators and educators are not experts in security, DHS 
is committed to utilizing our expertise to facilitate 
solutions. This means leveraging the capabilities of industry, 
school administrators, State and local officials, and our field 
personnel to ensure that the K-12 community has the tools and 
resources they need to make the best informed security 
decisions.
    In closing, I want to underscore the importance of the role 
that every one of us plays in the Nation's schools. A 
multifaceted program like this requires the skills, expertise, 
knowledge, and action of a wide and diverse community of 
interests. School security must remain a continuing high 
priority for the Nation, and I look forward to working with 
this committee to chair a path that will move schools toward 
enhancing approaches for managing risk and violence in the 
education environment.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Kolasky follows:]
                  Prepared Statement of Robert Kolasky
                              July 9, 2018
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today 
to discuss the Department of Homeland Security's (DHS) efforts to 
improve school security and preparedness, in coordination with 
interagency partners.
                            school security
    The Department of Homeland Security's mission states ``with honor 
and integrity, we will safeguard the American people, our homeland, and 
our values.'' The most important part of our mission is safeguarding 
the American people, which we do through a variety of means. The DHS 
National Protection and Programs Directorate (NPPD) is the Nation's 
risk manager for securing cyber space and physical infrastructure. 
Through the implementation of our mission, we have developed deep 
expertise and extensive capabilities around security that can be 
leveraged by schools across the country.
    NPPD has been working with our partners in the public and private 
sectors for many years to defend against threats to crowded public 
venues. We have seen attacks on civilians, in the United States and 
abroad, as they go about their lives and participate in the offerings 
of a free and democratic civil society. Attacks arrive while attending 
services at houses of worship, enjoying a concert, or even going out 
for a stroll on a public path. In America, we expect--and deserve--to 
continue these normal activities free from harm.
    Similarly, our youth deserve an education in a facility where they 
are free from harm. Yet, in recent years, our Nation has witnessed and 
mourned the deaths of, and injuries to, dozens of students and teachers 
in our schools. Unfortunately, in this calendar year, two mass 
shootings in Parkland, Florida and Santa Fe, Texas once again reminded 
us that we must do more to protect our students. DHS is using our 
experience working with critical infrastructure owners and operators to 
secure facilities around the country to better secure our schools. Our 
work with industry partners to secure the Nation's critical 
infrastructure--through activities such as the development of security 
standards for Federal buildings, the regulation of security at high-
risk chemical facilities, and the conduct of literally thousands of 
risk assessments at critical infrastructure--has endowed us with the 
know-how to elevate the overall level of security in the Nation. We are 
also leveraging our experience in supporting a unified Federal response 
to incidents to better support community-level response when our 
prevention efforts falter. While DHS does not, and should not, provide 
direct security to schools, we do support those organizations whose 
direct mission it is to work with schools.
    We readily share our tools and knowledge with State, local, Tribal, 
and territorial partners, the law enforcement community and others who 
are directly connected to the Nation's more than 130,000 kindergarten 
through high schools (K-12).\1\ This sharing is accomplished through 
our growing regional presence that supports a Nation-wide network of 
our Protective Security Advisors, as well as other DHS resources and 
programs.
---------------------------------------------------------------------------
    \1\ U.S. Department of Education National Center for Education 
Statistics, 2015 Digest of Education Statistics, Table 105.50 (2016).
---------------------------------------------------------------------------
                working together for more secure schools
    The Department is proud to be part of the Federal Commission on 
School Safety, which is charged with providing meaningful and 
actionable recommendations and best practices to keep students safe at 
school. The Commission, which is chaired by U.S. Department of 
Education Secretary DeVos, also includes Department of Homeland 
Security Secretary Nielsen, Attorney General Sessions, and Department 
of Health and Human Services Secretary Azar.
    To help further the goals of this commission, DHS is focusing on 
seven lines of effort:
  <bullet> Promoting a public awareness campaign modeled on the ``See 
        Something, Say Something'' program to encourage awareness and 
        reporting of suspicious activity;
  <bullet> Creating and sharing a guide on best practices for school-
        based threat assessments and violence prevention;
  <bullet> Updating and disseminating guidance on best practices for 
        school building security;
  <bullet> Integrating and coordinating Federal resources focused on 
        prevention and mitigation of active-shooter incidents at 
        schools;
  <bullet> Providing active-shooter training for law enforcement 
        officers;
  <bullet> Assisting in the development and implementation of tabletop 
        exercises and workshops focused on security protocols, 
        notifications and alerts, response, and recovery capabilities 
        with schools and first responders; and
  <bullet> Establishing and sharing guidelines and training on tactical 
        emergency casualty care.
                        understanding the issues
    The issue of mass shootings at schools is complex and multi-
layered, to include understanding behavioral issues as well as security 
of facilities. The Commission is gathering information from a range of 
experts. These include students, parents, teachers, school safety 
personnel, administrators, law enforcement officials, mental health 
professionals, school counselors, security professionals, and others. 
Each member of the Commission has or will organize at least one meeting 
focused on some of their respective lines of effort.
    At past Commission meetings, we have discussed several of the 
factors that may contribute to violence, including: Cyber bullying and 
social media; youth consumption of violent entertainment; and effects 
of press coverage on mass shootings. We have also reviewed past reports 
and recommendations from experts following previous school shootings, 
including Columbine, Virginia Tech, and Sandy Hook. DHS is planning a 
Commission meeting for mid-August where experts in school security best 
practices, threat assessment, and active-shooter mitigation will share 
their insights and experiences with the Commission.
           recognizing and learning from effective solutions
    While the overall issue of school security remains complex, our 
efforts to learn from past experiences are yielding results.
    The Commission conducted a field visit to Hebron-Harman Elementary 
School in Hanover, Maryland, to learn more about Positive Behavioral 
Interventions and Supports (PBIS). PBIS is a framework for assisting 
school personnel in organizing evidence-based interventions to help 
improve academic performance and social behavior outcomes for students.
    Three more field visits will take place over the next couple of 
months, including one led by the Department currently being scheduled 
in late August, which will focus on physical security for school 
buildings.
    The Commission has also hosted two Listening Sessions, the first 
taking place at the U.S. Department of Education in the District of 
Columbia, and the second in Lexington, KY. Members of Congress, State 
and local officials, law enforcement, parents, teachers, and students 
have taken this opportunity to provide input toward the Commission's 
work. Individuals may also provide input directly to the Department of 
Education, as outlined in the Federal Register.
                raising the baseline of school security
    As the Department contributes to the work of the Commission, we are 
leveraging current programs that cut across the spectrum to boost 
school security. This work falls within three lines of effort: 
Education and Community Awareness; Building Capacity through Training 
and Exercises; and Increasing Early Warning to Identify and Report 
Potential Threats.
    The work performed in support of these lines of effort take into 
account five planning assumptions:
  <bullet> Enhanced school security can deter future attacks and 
        disrupt them prior to mass damage being done;
  <bullet> School security should be designed to minimize disruption to 
        the learning environment;
  <bullet> Investments in school security will be constrained by 
        limited budgets;
  <bullet> School security is a shared responsibility and benefits from 
        community involvement, empowering individuals, and leveraging 
        law enforcement, non-governmental, and private-sector 
        capability; and
  <bullet> The Department's mission is to support enhanced school 
        security in the face of potential threats and vulnerabilities, 
        but DHS does not directly secure schools.
    Since the attack at Marjory Stoneman Douglas High School in 
February 2018, the Department has also conducted over 200 engagements 
with State and local representatives including schools, State 
committees, State school security forums, and school districts. DHS 
supported the Dallas Independent School District and the International 
Association of Venue Managers with a community outreach program--``SEE, 
SAY, DO''--to provide Dallas schools with the tools, training, and 
resources to prevent an active-shooter incident through increased 
situational awareness.
    Another example of DHS work in this area includes the Department's 
support of the State of Arizona's fusion center, which has partnered 
with the Phoenix Police Department's Threat Mitigation Unit and other 
Federal agencies on the development of a Community Liaison Program, 
which is responsible for maintaining strong working relationships with 
private-sector partners. The Community Liaison Program is now working 
with school districts to provide active-shooter training and to foster 
open lines of communication between schools and the public safety 
community. DHS has also participated in the Marjory Stoneman Douglas 
High School Public Safety Commission meeting, which is part of an 
effort to analyze information from the school shooting and other mass 
violence incidents in the State and address recommendations and system 
improvements.
    Recognizing that most of the Nation's school administrators and 
educators are not experts in security, DHS is committed to utilizing 
our expertise to facilitate solutions. This means leveraging the 
capabilities of industry, school administrators, State and local 
officials, and our field personnel to ensure that the K-12 community 
has the tools and resources they need to make the best-informed 
security decisions.
    In closing, I want to underscore the importance of the role that 
every one of us plays in securing the Nation's schools. A multi-faceted 
problem like this requires the skills, expertise, knowledge--and 
action--of a wide and diverse community of interest. School safety must 
remain a continuing high priority for the Nation.
    I believe the Department is well-positioned to assist in raising 
the base-line of security for K-12 schools, together with our partners 
at all levels of government, in academia, and in communities and law 
enforcement around the Nation. I look forward to working with this 
committee to chart a path that will move schools toward enhancing 
approaches for managing risks from violence in the education 
environment. I thank you in advance for your continuing leadership in 
this regard and I look forward to your questions.

    Mr. Donovan. Thank you for your testimony.
    I now recognize myself for 5 minutes of questioning.
    I would like to ask the entire panel to help us understand 
this and ask each of you to respond.
    At the subcommittee's request, the Government 
Accountability Office conducted reviews of the Federal efforts 
to support emergency preparedness and security efforts at K-12 
schools and institutions of higher education. While both 
reports acknowledge the good work of the Departments of 
Education, Justice, and Homeland Security on this important 
issue, they noted that Federal efforts could be better 
coordinated and that education institutes were often unaware of 
the available assistance.
    How are agencies now working to coordinate these various 
guidance programs, assistance related to school security, and 
how are we working to allow localities to know of the 
availability of the services the three of you just described in 
great detail that are well-formed, well-thought-out, and would 
be successful, but only if localities know of their existence?
    So I would ask each of you to comment on what we are doing 
to coordinate our three major agencies, and second, how are we 
getting the word out to localities that your services are 
available to them?
    Mr. Botel. Sure. I will start. Thank you, Mr. Chairman.
    So, first of all, in response to the report coming out of 
that GAO study, we did form a group called the Federal Partners 
and School Emergency Management and Preparedness, and there are 
a couple of components to that. There is a steering committee 
and a task force, and that group has met periodically since 
that report came out. Coming out of that, the agencies that 
have been working together, one of my colleagues mentioned the 
school guide for developing high-quality emergency operations. 
We are now about to release a district guide, and that is 
something we have worked together on.
    In addition, in September as we roll that out, we plan to 
have a portal that includes information about the resources 
that all of the agencies have that helps support and provide 
assistance to districts and schools in developing plans and 
keeping their students safe.
    Mr. Hanson. Similarly at the Department of Justice, we are 
also engaged in that Federal partnership my colleague 
described. That was created after the 2016 GAO report in 
response to that, and I believe GAO reviewed our efforts and 
closed that recommendation. So we have continued to work in 
regular contact through that partnership. Of course, the 
President created the Federal Commission on School Safety. So 
all of our departments, plus HHS, are now working together 
investigating best practices with the intention of 
disseminating those in a study and report coming out in the 
coming months.
    What we do at the Office of Justice Programs in the 
Department particularly is we regularly work with State and 
local governments, particularly with regard to law enforcement, 
less so with schools. So we will leverage those relationships 
that we have long established for decades and work with our 
colleagues at the Department of Education to make sure their 
schools know about them as well.
    The way the Stop School Violence Act grants work are only 
State, local governments, and Tribal entities can apply for 
them. So we are accustomed to working with those partners. Like 
I said, we will also work with our partners at the Department 
of Education to make sure the schools know about those as well. 
Just last week we had a webinar about our grant programs 
between COPS and OJP, and we had over 210 participants. We have 
archived that on our website, and we will continue to reach out 
via the internet, in local or trade publications as 
appropriate, working with Congress and certainly making sure 
your constituents know about them, and also then via social 
media and other means that come up as we see as appropriate.
    Mr. Kolasky. Then let me sort-of answer on top of that, 
sort-of the last mile, the committee end of that. We talked a 
couple of times, and you mentioned the protective security 
advisors. What we have done, we have protective security 
advisors in every high-risk urban area and State around the 
country. We prioritized their security advice toward being 
around school security, and really the folks who can help 
influence decisions being made around school security. As you 
know, Congressman, we were in Queens with school officials and 
local homeland security, local police, emergency managers in 
Staten Island. We appreciated you having us there.
    We really have been able to take the guides that have been 
coming out from across the Federal Government and then have an 
individual who can really help school boards navigate that. So 
that is something that we will continue to do because I think a 
lot of what we need to get done is to demystify what all these 
resources are and put them in the hands of people who want to 
make security decisions but don't know how to do that, don't 
know how to do so cost-effectively.
    Mr. Donovan. We talk about education being really grounded 
in the local level, and I am not too sure that when we think 
about schools being overseen by cities, counties, or States, 
that people look at the Federal Government as a resource for 
schools. We look toward the Federal Government to protect our 
Nation, to protect our interests overseas. But here in Newark, 
New Jersey, or on Staten Island or South Brooklyn, what I 
represent, do those communities who want to assess the 
vulnerabilities of their schools, those folks who need finances 
for whatever protective mechanisms are needed there, do they 
look at the Federal Government? I always think it is our job to 
allow them to know that these are available.
    My time has expired with one question, so I am going to 
yield what time I don't have left to my colleague, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    But before I go into my questions, I would ask to have a 
letter from the National Education Association and testimony 
for the record from the New Jersey School Boards Association 
entered into the record.
    Mr. Donovan. Without objection.
    [The information referred to follows:]
             Letter from the National Education Association
                                      July 6, 2018.

U.S. House of Representatives, Committee on Homeland Security, 
        Subcommittee on Emergency Preparedness, Response, and 
        Communications, Washington, DC 20515.
    Dear Representative: On behalf of our 3 million members and the 50 
million students they service, we would like to submit the following 
comments for the record in connection with the July 9 field hearing in 
New Jersey, ``Protecting Our Future: Addressing School Security 
Challenges in America.''
    We thank you for holding this hearing. It is essential for all 
stakeholders, especially educators, to have a seat at the table during 
discussions of the vitally important issue of school security, 
including gun violence prevention. At the same time, we need to ensure 
that safeguards are in place to preserve the right to due process and 
prevent the resurrection of failed ``zero tolerance'' policies that can 
lead to the unnecessary and unjust expulsion of students of color.
    For too long, Congress has failed to take common-sense steps to end 
the uniquely American epidemic of gun violence and mass shootings. 
According to Everytown for Gun Safety, there have been nearly 300 
school shootings since 2013, including at least 50 incidents of gunfire 
on school grounds in 2018. NEA and its members, like the public at 
large, overwhelmingly support stronger gun violence prevention laws, 
including comprehensive, enforceable background checks to prevent 
dangerous people from buying guns.
    In addition, we believe a comprehensive approach to providing a 
safe and secure learning environment must include increased funding 
for--and access to--school-based health centers and their staffs. 
Proper diagnosis can and often does start in our schools, yet there is 
a shortage of counselors, nurses, social workers, and psychologists in 
public education.
    We also support expanding--and increasing funding for--professional 
development for educators in the areas of bullying, mental and 
behavioral health, cultural competencies, and classroom management.
    Thank you for the opportunity to submit these comments.
            Sincerely,
                                                 Marc Egan,
                                  Director of Government Relations.
                                 ______
                                 
         Statement of the New Jersey School Boards Association
                              July 9, 2018
                   njsba school security initiatives
    Since the 2012 Newtown, Connecticut tragedy, the New Jersey School 
Boards Association, a federation of the State's local boards of 
education, has engaged in school security initiatives encompassing 
research, policy (both NJSBA and local district), training/professional 
development, and advocacy.
    For the subcommittee's July 9 field hearing on school security, 
NJSBA will focus on its activities in the area of research and 
information. We request that the following information be read into the 
record.
          safe and secure schools initiative: state-wide forum
    Immediately after the Newtown tragedy, NJSBA planned a series of 
actions to assist public schools in addressing school security issues.
    Among the first strategies identified was education--that is, 
informing local school board members and their staffs of the 
requirements now in place and strategies they may consider.
    Our initial effort was ``Safe and Secure Schools: Perspectives 
after Newtown,'' a State-wide forum that drew over 650 people to The 
College of New Jersey in January 2013. The meeting featured experts 
from law enforcement, security, school climate, insurance, and crisis 
management.
    To reach a vital element of the school community--that is, 
parents--NJSBA also hosted two regional forums, with the participation 
of county prosecutors, local law enforcement agencies, and school 
district officials. Additionally, ``school security'' became a frequent 
topic of county school boards association meetings throughout the year.
                safe and secure schools: year-long study
    Based on observations from these forums and other sources, then-
NJSBA President John Bulina identified a need to provide the 
Association's membership with additional guidance and direction.
    In March 2013, he appointed a School Security Task Force and asked 
the group to take on the following tasks:
  <bullet> Survey school districts on their security practices and 
        consult with experts in law enforcement, security, school 
        climate, and other fields.
  <bullet> Review current developments affecting the implementation and 
        funding of school security measures.
  <bullet> Identify best practices and changes in statute and 
        regulation that would promote student safety and enable school 
        boards to fund and implement security measures.
  <bullet> Review relevant NJSBA policy.
    More than 130 local school board members volunteered to serve on 
the task force. Eleven were selected. Their employment experience 
spanned several fields, including law enforcement, education, law, and 
homeland security.
    The task force study extended for over a year. The final report, 
What Makes Schools Safe?, includes 45 recommendations for action by the 
State and Federal Governments, local school districts and NJSBA. (The 
full report, along with other resources, is available at www.njsba.org/
schoolsecurity.)
    Areas addressed include security personnel, school climate, policy 
and planning, communications, training, architecture and physical 
security, and financing.
    Four years after its release, the report remains relevant. It 
provides recommendations on subjects, ranging from school security 
plans and emergency response procedures to prevention strategies that 
involve facility upgrades, school climate, and education programs.
    The Final Report of the NJSBA School Security Task Force includes 
45 recommendations addressing local school district practices and State 
and Federal requirements in six key areas: Security personnel; school 
climate; policy and planning; communications/community relations; 
physical security; and finances.
Findings
    Each of the report's recommendations is based on findings that were 
developed following consultation with experts and additional research. 
Key findings of the task force include the following:
  <bullet> New Jersey has strong and effective State-wide school 
        security measures in place. For example, our State is one of 
        only 10 that require periodic security drills throughout the 
        school year. It requires crisis plans in each district, as well 
        as agreements between school districts and local law 
        enforcement agencies. The procedures result from State law and 
        regulation, aggressive State initiative, local school board 
        policy, and the interest of caring adults, including teachers, 
        parents, school board members, and law enforcement personnel.
  <bullet> Effective security planning must involve every element of 
        the school community and the broader community.
  <bullet> A safe and secure environment for our students requires not 
        only protection from outside threats, but also the maintenance 
        of a supportive and caring day-to-day internal school climate.
  <bullet> A strong, positive relationship between school officials and 
        law enforcement/emergency responders--built on mutual respect 
        for, and adherence to their specific roles--is a cornerstone of 
        an effective school security program.
  <bullet> An information gap persists concerning the various types of 
        security personnel employed in schools (e.g., School Resource 
        Officers, private security, retired law enforcement, etc.) and 
        their training, qualifications and functions, a situation that 
        has led to public misperception and misunderstanding.
  <bullet> ``Deter, Slow, and Detain'' intruders, a foundation of 
        effective physical security, requires a different set of 
        building blocks for each school and school district. However, 
        certain low-cost options are available to address the common 
        concern of controlling entry into schools and classrooms.
  <bullet> Funding for security upgrades and strategies has become 
        extremely limited due to competing demands of the academic 
        program and capital expenses, State regulation over non-
        instructional expenditures, the 2 percent tax levy cap, and the 
        lapse of Federal funding for the School Resource Officer 
        program.
    A list of the report's 45 recommendations is attached to this 
statement.
                               next steps
  <bullet> NJSBA President Daniel Sinclair and Executive Director Dr. 
        Lawrence S. Feinsod have appointed a new security committee 
        that is reviewing the 2014 report and, as necessary, will 
        update information and recommendations. The update is expected 
        to be completed this summer.
  <bullet> Each year, NJSBA establishes priority goals related to its 
        Strategic Plan. For 2018-2019, the Association will study the 
        impact of the effective delivery of mental health services and 
        early intervention strategies on student health and wellness, 
        school climate, and school security.
    This effort will include appointment of task force that will 
explore the relationship of mental health services to school security. 
The task force, which will consult with mental health practitioners and 
other experts, will begin meeting in the fall and will issue a final 
report, including recommendations for further action and information on 
best practices, by June 2019.
    Founded in 2014, the New Jersey School Boards Association is a 
federation of the State's local boards of education and includes a 
majority of New Jersey's charter schools. NJSBA provides training, 
advocacy, and support to advance public education and promote the 
achievement of all students through effective governance.
                FINAL REPORT: SCHOOL SECURITY TASK FORCE
                 Appendix A: Summary of Recommendations
    Based on its research, the New Jersey School Boards Association 
School Security Task Force makes a total of 45 recommendations in the 
following areas: Security Personnel; School Climate; Policy and 
Planning; Communications; Training in School Security; Physical 
Security; and Financing.
                         i. security personnel
Local School District/Community
    1. Because of significant variations in the size of school 
districts and local law enforcement agencies, building lay-outs, 
student populations and community attitudes, the decision on whether or 
not to employ security personnel--armed or un-armed, police or non-
police--must rest exclusively with the local school district and should 
not be dictated by the State.
    2. A school resource officer (SRO) can provide a critical safety 
factor and valuable counseling and support services for students. The 
employment of SROs is the ``preferred'' model for a law enforcement 
presence in a school building.
    3. In assigning SROs or other law enforcement officers to schools, 
local law enforcement agencies must consider fully the qualifications 
and aptitude of the individual, including his or her capability as a 
first responder and ability to relate to students. Additionally, the 
training of SROs must stress conflict resolution, restorative justice 
and stationhouse adjustment practices, as well as awareness of gang and 
drug abuse activities.
    4. School districts should ensure that all security personnel: (a) 
Receive training appropriate for employment in the school environment 
and (b) have in-depth understanding of local emergency protocols.
    5. In developing the Memorandum of Agreement, school districts/
charter schools and local law enforcement should clearly address the 
intersection of school policy/disciplinary code, Criminal Code and the 
Juvenile Justice Code. They must ensure that student behavior that is 
in violation of school codes of conduct be addressed by school 
officials and not be imposed on police. Based on Federal and State law 
and school policy, such guidance should ensure the following: Immediate 
response to crises; protection of the safety and interests of students 
affected by violent acts; the appropriate avenues of discipline and 
referral for student offenders; and the recognition of State 
requirements in areas such as student possession of firearms and 
weapons on school grounds, and harassment, intimidation, and bullying.
State and Federal
    6. The State and Federal Governments, respectively, should provide 
and increase grant funding to support the assignment of law enforcement 
officers as School Resource Officers.
    7. The Legislature and the Governor should enact legislation to 
establish a new category of law enforcement officers, such as Special 
Law Enforcement Officer Level III, who are specially trained in working 
with students and assigned to protect our schools. Such law enforcement 
personnel can provide an additional school security option to school 
districts. The legislation should also relieve current limits on 
working hours for special officers when they are assigned to schools 
and should ease the restrictions on the number of such officers 
employed by a municipality.
    8. The New Jersey Department of Education and the Office of the 
Attorney General should revise The New Jersey Guide to Establishing a 
Safe Schools Resource Officer Program in Your Community, which was 
published in 1998, so that the document reflects recent developments in 
the areas of security, funding, and programming.
                           ii. school climate
Local School District/Community
    9. Local school districts should engage in school climate 
assessments and develop and implement plans to ensure that students 
have safe, secure, and supportive learning environments that provide 
meaningful communication and involvement with caring adults on the 
school staff. (A list of climate assessment resources is found on page 
30 of this report.)
    10. Not all student groups experience school safety and the school 
climate in the same manner. To enable students to learn in supportive 
environments at each grade level, local school boards should adopt 
policies that recognize the importance of social-emotional learning, 
character development, restorative practices and community building. In 
addition, the Task Force recommends that school boards review the 
information on social-emotional learning, supportive practices, and 
authoritative disciplinary structures in Section II of this report, 
School Climate.
    11. To build a respectful school climate that enables the 
advancement of student achievement, local boards of education and 
school administrators should ensure that the principles of social-
emotional learning and character development skill-building are infused 
into academic instruction in a coordinated manner and that there is a 
consistent application of discipline.
    12. Local boards of education should ensure that the School Safety 
Teams, required by the Anti-Bullying Bill of Rights, are not only 
reviewing reports of harassment, intimidation, and bullying, but are 
also focusing on practices and processes related to school climate, so 
as to inform the school boards in their periodic review of HIB and 
related policies.
    13. To ensure their School Safety Teams have a positive impact on 
school climate, local boards of education should consider requiring the 
teams to meet more than the twice-yearly minimum.
State
    14. As recommended by the NJ SAFE task force, the State should form 
an ``interagency working group'' comprised of various departments, 
including education, law and public safety, and health and human 
services, to address policy and programs on early intervention and 
mental health services at the community level. A similar State-level 
approach (the Education-Law Enforcement Working Group) has had a 
positive impact on local policy and procedures through the State's 
Uniform Memorandum of Agreement.
    15. To clarify the role of the School Safety Teams in improving 
school climate, the New Jersey State Board of Education should amend 
administrative code (N.J.A.C. 6A:16) to rename these bodies ``School 
Safety/Climate Teams,'' as recommended by the State's Anti-Bullying 
Task Force.
                        iii. policy and planning
Local School District/Community
    16. The local board of education should ensure that the school 
district has completed assessments of physical security, threats, 
capacity, and school climate. The assessments, or audits, should be 
conducted in concert with local law enforcement and emergency 
responders, should follow guidelines published in the New Jersey School 
Safety & Security Manual: Best Practices Guidelines (2006) and should 
draw on the work of experts in the areas of school climate, security, 
and building design.
    17. Local board of education members should familiarize themselves 
with the terms of the Memorandum of Agreement between the local school 
district and the local law enforcement agency.
    18. Local school districts should form committees representing all 
stakeholders (staff, parents, administrators, emergency responders, law 
enforcement, community members, etc.) as part of their efforts to 
develop school security plans, to assess the plans on an on-going 
basis, and to identify necessary enhancement of school security 
protocols, equipment, and staffing.
    19. Local school districts should ensure on-going, periodic review 
of the school security plan, the Memorandum of Agreement, 
administrative response procedures, and protocols governing security 
drills.
    20. School district security policies and regulations should 
address administrators' responsibilities, building and site access 
(including after-hours use of facilities), and distribution of keys and 
access cards.
    21. School districts should stage State-required security drills at 
varying times and days of the week and under different weather 
conditions. Drills should involve numerous crisis scenarios, so that 
school officials and law enforcement can evaluate their effectiveness, 
make necessary adjustments in procedures, identify safety weaknesses 
and make recommendations for additional training.
    22. School districts should make tabletop exercises a regular part 
of the security protocol, especially when full-scale exercises and 
testing of crisis response is not feasible. Tabletop exercises should 
involve law enforcement, fire departments, and emergency response 
agencies.
    23. Local boards of education should review their policies related 
to school security, including those that address violence and 
vandalism, student conduct, emergencies/disaster preparedness, and 
weapons/firearms, to ensure that they are compliant with current 
statute and regulation and reflect district-specific factors and 
concerns.
    24. School boards should ensure that practices and procedures are 
in place to address building access, emergency evacuation, security 
personnel and emergency medical services for events and functions that 
take place after the instructional day.
State
    25. The New Jersey Department of Education should ensure that the 
manual, School Safety and Security Manual: Best Practice Guidelines, 
last published in 2006 is updated as needed to incorporate the most 
recent developments in school security strategies and procedures, 
emergency equipment, and technology.
                           iv. communications
Local School District/Community
    26. As part of their school security plans, local boards of 
education should: (a) Ensure that staff, students, parents, and members 
of the community are informed of changes in school security procedures 
in a timely manner and (b) convey the importance of reporting to school 
or law enforcement authorities unusual incidents or behavior in or 
around school facilities.
    27. To ensure communication with all members of the school 
community, law enforcement and emergency responders, school districts 
should implement multi-platform emergency notification systems that use 
telephone, email, text messaging, website, and other methods of 
communication.
    28. Because of the proven effectiveness of anonymous tip lines in 
preventing incidents of violence and promoting the health and safety of 
students, school districts should explore the use of such networks and 
take advantage of the systems that are currently available.
State
    29. The NJ SAFE Task Force recommendation to establish a State-wide 
anonymous tip line should be pursued by the State Departments of 
Education, Community Affairs, and Law and Public Safety, as well as the 
Office of Homeland Security and Preparedness and other agencies.
                          v. security training
Local School District/Community
    30. To ensure that all school staff members have the appropriate 
knowledge to improve security and help prevent and respond to 
emergencies, local school districts should: (a) Provide on-going 
training, and (b) utilize the varying no-cost training resources 
available to them at the local, county, State, and Federal levels.
    31. Training provided to district staff should vary in scope and 
should address specific threats that a district might face, along with 
general school security and safety principles.
    32. Training on security plans and response procedures should 
involve any individual in charge of students at a given time, including 
full-time staff, part-time staff, substitute teachers, and volunteers. 
Districts should ensure that all individuals in charge of students 
receive information on their role in emergencies.
    33. When conducting training, school districts should involve 
appropriate outside response entities, including personnel who would 
respond to the schools in an emergency. Districts should also encourage 
representatives of outside entities to visit schools and familiarize 
themselves with the facilities and their layouts as part of training 
exercises, such as active-shooter drills for law enforcement personnel.
                         vi. physical security
Local School District/Community
    34. Local boards of education and school administrators should use 
the State-required updates to their district's Long-Range Facility Plan 
as an opportunity to ensure that security needs are met in an 
effective, consistent, and financially prudent manner.
    35. Local school boards should ensure that school security planning 
includes consultation with professionals in the areas of architecture, 
engineering, and information technology, as well as construction and 
fire code officials.
    36. For schools with extensive windows and glass doors, 
particularly at ground level, districts should implement the most 
effective and economical method to prevent penetration through the use 
of firearms.
    37. Through the use of security planning teams, school districts 
should: (a) Regularly review the effectiveness of protocols governing 
visitor entry, key distribution, and student, staff, vendor, and 
visitor access to school buildings and (b) identify improvements to 
these processes.
    38. To the extent possible, school districts should incorporate the 
Homeland Security Standards for new construction and the NJDOE 
``Security Standards for Schools under Construction'' into renovations 
and alterations of existing facilities.
    39. School districts should routinely evaluate and review the 
condition of their buildings and identify maintenance issues (e.g., 
repair of door locks, doors and windows, alarm systems, public address 
systems, utility room access, etc.) in need of attention.
    40. School districts should ensure the effectiveness of revised 
school security procedures, new equipment, or building improvements/
alterations through a careful review of threat/risk assessment and 
consideration of community desires and norms, and local budget 
constraints.
                     vii. financing school security
Local School District/Community
    41. Local school districts and municipalities are encouraged to 
share costs to enable the assignment of School Resource Officers.
    42. The Commissioner of Education should amend State regulation 
(N.J.A.C. 6A:23A) to eliminate ``Operation and Maintenance of Plant 
cost per pupil equal to or less than the State median'' as a standard 
for receipt of State aid when reviewing proposed school district 
budgets or requests to seek voter approval to exceed the tax levy cap.
    43. The State should designate additional construction grant 
funding for the express purpose of enhancing school security.
    44. The legislature should provide additional options to enable 
school districts to hire and retain appropriately trained security 
personnel.
    45. The Federal Government should restore grant funding to support 
the assignment of School Resource Officers.

    Mr. Payne. Thank you, sir.
    Mr. Botel, during the school year, school shootings have 
averaged about 1 per week, and in response to the increase in 
school violence President Trump released his proposal for 
improving school preparedness on March 11, 2018 as part of the 
proposal. The President formed the Federal Commission on School 
Safety. Last month, Secretary DeVos stated that the Federal 
Commission on School Safety would not research the role of guns 
in school violence.
    So, is the Commission still determined not to research gun 
violence in schools? Just a yes or no answer.
    Mr. Botel. There is in the charge that the President gave--
--
    Mr. Payne. Is that a yes or a no?
    Mr. Botel. The Commission is looking at firearms with 
regard to age restrictions.
    Mr. Payne. In terms of what?
    Mr. Botel. Of age restrictions, of whether changes in 
policy in terms of at what age someone could acquire firearms, 
whether that could help make school safer.
    Mr. Payne. So the Commission is going to study, or is not 
going to study?
    Mr. Botel. Is going to study.
    Mr. Payne. That is a revelation. We were under the 
impression--what was Secretary DeVos intimating in her 
statement?
    Mr. Botel. I just know that in the document that you 
referenced that the President put out to form the Commission, 
there were a number of things that the Commission was charged 
to look at, and this issue of restrictions surrounding age and 
gun ownership, that was one of the things that he charged the 
Commission to look at, and they are looking at it.
    Mr. Payne. So Ms. DeVos is wrong?
    Mr. Botel. For that particular question, she may have seen 
it as a more comprehensive question on the issue. Again, the 
charge that the President gave the Commission is narrowed to 
the age restriction issue.
    Mr. Payne. It is interesting that as this administration 
moves forward, one hand doesn't know what the other one is 
doing. But, c'est la vie.
    On June 6, the Federal Commission on School Safety held its 
first public meeting, and at that meeting many people stood 
before the Commission with concerns about the Commission's 
work. Many asked that the Commission not ignore guns in its 
research. How is the Commission utilizing that feedback? I 
guess you are saying that they are looking at it. But based on 
the feedback from the public, how is that being utilized in 
formulating----
    Mr. Botel. We have received a lot of feedback from the 
public. There have been listening sessions, the meeting that 
you are talking about. We also have an email address, 
safetyated.gov, where we have received hundreds and hundreds of 
pieces of input, and I can assure you that we have staff that 
look at every single piece of input we receive and share that 
with the Commission members, and they will determine ultimately 
what their report includes. They are planning on releasing 
their final report by the end of the calendar year. So all of 
that input is being looked at closely.
    Mr. Payne. But we agree that in all these instances, the 
one common factor was a gun being used in these acts of 
violence; correct?
    Mr. Botel. Yes. In the acts of violence you are talking 
about, there has been a lot of gun violence. That is right.
    Mr. Payne. So we just want to make sure that Secretary 
DeVos knows what the President is saying, and the President 
knows what Secretary DeVos is saying, and we get one common 
message coming out of the administration, because it just 
appears that everybody is all over the place with this stuff. 
No one knows what the other one is saying on a day-to-day 
basis. So how can the American public be secure in the fact 
that something is happening? If you are getting several 
different scenarios from different people in the 
administration, then who do you believe? Who do you follow? The 
Secretary says there won't be any looking into gun usage, and 
then the President says that that is part of the Commission's 
job.
    Mr. Botel. Well, I think in the report that gets issued, as 
I said, I believe the plan is by the end of the calendar year 
it is going to address all the things that the President 
charged the Commission to look at. We are getting input on 
other things as well. Some of that will be in the purview of 
the Commission. Of course, I think we are getting a lot of 
information that will be helpful to the Congress and to others 
at the State level--you mentioned New Jersey--as obviously 
States and localities make their own policies.
    Mr. Payne. OK. Well, my time is up.
    Boy, that is a quick 5 minutes.
    Mr. Donovan. It is a quick 5 minutes.
    We are going to thank all the witnesses for their 
testimony. As you can tell, the Ranking Member and myself 
didn't get to ask all the questions we would like to ask, so we 
may have some additional questions to ask of you that we would 
ask you to respond to in writing.
    We are going to take a brief break so that the staff can 
change over the panel for our second panel. I thank all of you 
for your testimony, for what you are doing for our great 
Nation. Thank you, sirs.
    [Recess.]
    Mr. Donovan. We are pleased to welcome our second panel of 
witnesses. Our second panel includes Mr. Jared Maples, director 
of New Jersey Office of Homeland Security and Preparedness; Mr. 
Ben Castillo, director of the New Jersey Department of 
Education, Office of School Preparedness and Emergency 
Planning; Major Jeanne Hengemuhle of the New Jersey State 
Police Department; Mr. Timothy Gerity, president of the New 
Jersey Association of School Resource Officers; and Mr. Michael 
Reilly, president of the Community Education Council 31 in 
Staten Island, New York.
    I thank you for being here today. The witnesses' full 
written statements will appear in the record.
    The Chair now recognizes Mr. Maples for his testimony.
    It is good to see you again, sir.
    Mr. Maples. You, as well.

  STATEMENT OF JARED M. MAPLES, DIRECTOR, OFFICE OF HOMELAND 
         SECURITY AND PREPAREDNESS, STATE OF NEW JERSEY

    Mr. Maples. Chairman Donovan and Ranking Member Payne, 
thank you for the opportunity to testify before you today. I am 
honored to speak on behalf of the dedicated professionals of 
the New Jersey Office of Homeland Security and Preparedness, 
NJOHSP, who are working tirelessly to ensure the safety and 
security of the State of New Jersey.
    Today my remarks will focus on the work we are doing in New 
Jersey under Governor Murphy's leadership to reflect National 
priorities while building local capabilities to address risk 
and protect our communities using partnerships, continuous 
improvement, and a whole-of-Government approach.
    New Jersey faces a complex, diverse, and fluid security 
environment, with persistent and evolving threats. We average 
over 1,200 people per square mile, substantially higher than 
the National average of 92. New Jersey has an undoubtedly 
unique risk environment.
    However, there is no threat more jarring or more important 
to address than the one to our schools. As we have seen in the 
appalling attacks like those in Florida and Texas, the tragic 
lesson we have learned is that schools are often targets of 
choice for those who wish to commit horrifying and attention-
grabbing acts of violence. New Jersey has more than 600 school 
districts, with the number of schools exceeding 2,500. This 
number alone, not to mention the number of colleges and 
universities in the State, presents a vulnerability profile of 
critical importance.
    On March 26 of this year, Attorney General Grewal updated 
Directive 2016-7 to explicitly mandate that threats of school 
violence be sent to the New Jersey Suspicious Activity 
Reporting System, maintained by my agency. Accordingly, all 
school-related threats are reported to our Counterterrorism 
Watch located at the Regional Operations and Intelligence 
Center, our State Fusion Center, as well as the County 
Counterterrorism Coordinators. In partnership with the New 
Jersey State Police and the FBI, we work with law enforcement 
to track and disseminate information regarding possible threats 
to schools State-wide, which mitigates the possibility of 
violence.
    Regardless of the scope of our individual mission, all of 
us leading the State have and will continue to marshal a full 
contingent of resources for protecting our children and 
educators.
    As we continue our work, we recognize that continual 
improvement is the only way to succeed. Resting on our laurels 
will not strengthen security. We recognize that across the 
country and here in New Jersey, we must strengthen prevention 
efforts. Preventing an incident and avoiding the use of 
response tactics is our goal. As communities, we must embrace a 
culture of preparedness that invests equally in both prevention 
and response.
    We will continue to prioritize the identification of 
suspicious activity, mental health indicators, and ensure that 
there is a clear path for reporting and addressing issues 
before an incident occurs. We will expand innovative efforts 
such as suspicious activity reporting training for school bus 
drivers, custodians, teachers, and administrators. We will 
innovate our support for first responders by expanding 
capabilities to create waves of first preventers.
    Our strategic approach to security also includes supporting 
and building response capabilities such as comprehensive after-
shooter training, including pre-incident indicators and 
pathways to report those indicators. Our first responder 
community here in New Jersey is one of the world's best. 
Additionally, the New Jersey State Police, Departments of 
Education, Human Services, Health, Children and Families, and 
many other partners have built response capabilities that are 
second to none. New Jersey Department of Education has staff 
embedded with NJOHSP and conducts unannounced school security 
drills across the State to test both plans and the actions of 
faculty and staff in a controlled, realistic environment. We 
continue to offer large-scale active-shooter exercises for K-12 
and partner with Federal DHS for hometown security initiative 
planning.
    We recognize the consistent need to expand security 
capabilities, focusing on where mass gatherings of people 
occur, what those common vulnerabilities are, and ensuring that 
individuals, especially school children, know what to do when 
circumstances deviate from those they have practiced. To that 
end, our colleges and universities are participating in a new 
Mass Gathering Working Group to address these common 
vulnerabilities and build missing capabilities at locations 
where students gather throughout the State.
    We will continue to ensure that our plans do not just 
account for the security of the building, but build 
capabilities that empower the safety of their precious content, 
our children. We are currently working with the Office of the 
Secretary of Higher Education, the New Jersey Office of 
Emergency Management, and the New Jersey Department of Health 
to review every institution of higher education's emergency 
operations plan.
    We will expand training models and traditional planning 
assumptions to address changing tactics and enable capabilities 
to deviate from the plans as situations dictate. We have 
already begun to transform our thinking and focus on these 
essential areas. Over the past 2 years, the State has 
continually implemented recommendations from the 2015 New 
Jersey School Security Task Force Report, including the 
creation of the New Jersey School Safety Specialist Academy and 
Certification Program; annual security training for public and 
non-public school employees; additional training and 
qualifications of Class III Special Law Enforcement Officers; 
and new school construction to incorporate security measures 
into architectural design.
    Subsequently, we have created a School Security 
subcommittee on the State's Domestic Security Preparedness Task 
Force, which I chair, to coordinate horizontally across State 
agencies, and integrate vertically with National priorities and 
local needs. Part of that effort includes conducting security 
assessments at schools, as well as providing assessment 
training for local enforcement partners who can serve as force 
multipliers to enhance security capabilities in schools 
throughout the State.
    Work remains, but there are people dedicated to getting it 
right using a whole-of-Government approach. We will focus on 
prevention, we will innovate, and we will continue to build 
those capabilities that are vital to our overall security.
    Chairman Donovan, Ranking Member Payne, and distinguished 
Members of the subcommittee, I thank you again for the 
opportunity to testify today. I look forward to your questions 
and yield back to the Chairman.
    [The prepared statement of Mr. Maples follows:]
                 Prepared Statement of Jared M. Maples
                              July 9, 2018
                              introduction
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee. Thank you for the opportunity to testify before you 
today. I am honored to speak on behalf of the dedicated professionals 
of the New Jersey Office of Homeland Security and Preparedness, who are 
working tirelessly to ensure the safety and security of the State of 
New Jersey.
    New Jersey faces a complex, diverse, and fluid security 
environment, with persistent and evolving threats. As you know, New 
Jersey has the highest population density of any State in the Nation--3 
times the population density of New York and Pennsylvania--with almost 
9 million residents in the fourth-smallest State by land mass. We 
average over 1,200 people per square mile, substantially higher than 
the National average of 92. We have some of the most critical 
infrastructure in the United States, and we are flanked by two of the 
largest cities in the country. New Jersey has an undoubtedly unique 
risk environment.
    However, there is no threat more jarring or more important to 
address than the one to our schools. As we have seen in the appalling 
attacks in Florida and Texas, the tragic lessons we have learned is 
that schools are often targets of choice for those who wish to commit 
horrifying and attention-grabbing acts of violence. New Jersey has more 
than 600 school districts with the number of schools exceeding 2,500. 
This number alone, not to mention the number of colleges and 
universities in the State, presents a vulnerability profile of 
paramount importance.
    On March 26 of this year, Attorney General Grewal updated Directive 
2016-7 to explicitly mandate that threats of school violence be sent to 
the New Jersey Suspicious Activity Reporting System. Accordingly, all 
school-related threats are reported to our Counterterrorism (CT) Watch 
located at the Regional Operations and Intelligence Center (ROIC), as 
well as the County Counterterrorism Coordinators. In partnership with 
the New Jersey State Police, we work with law enforcement to track and 
disseminate information regarding possible threats to schools State-
wide. This collaboration and information sharing strengthens the 
State's ability to mitigate the possibility of violence against 
schools.
    While some incidents call for an academic discussion to categorize 
whether they are crime and terror, this is not one of them. The 
distinction does not matter. The safety of our children is paramount. 
Regardless of the scope of our individual mission, all of us leading 
this State have, and will continue, to marshal a full contingent of 
resources toward protecting our children.
                             njohsp actions
    As we continue our work, we recognize that continual improvement is 
the only way to succeed. Resting on our laurels will not strengthen 
security. While we provide details of on-going efforts, be mindful that 
we are constantly seeking to improve. The most effective improvement we 
can take is to, quite simply, work to prevent these incidents from 
occurring. We recognize that across the country, and here in New 
Jersey, we must strengthen prevention efforts. Preventing an incident 
and avoiding the use of response tactics is our goal. As communities, 
we must embrace a culture of preparedness that invests equally in both 
prevention and response.
    We will continue to prioritize the identification of suspicious 
activity, mental health indicators, and ensure that there is a clear 
path for reporting and addressing issues before an incident occurs. We 
will expand innovative efforts such as suspicious activity reporting 
training for school bus drivers, custodians, teachers, and 
administrators.
    We will innovate our support for first responders by expanding 
capabilities to create waves of first preventers. We will continue to 
take a whole-of-Government approach under existing task forces to 
provide comprehensive active-shooter training, including pre-incident 
indicators and pathways to report those indicators.
    Our strategic approach to security also includes supporting and 
building response capabilities. Our first responder community here in 
New Jersey is one of the world's best. The New Jersey State Police, 
Departments of Education, Human Services, Health, Children and 
Families, and many other partners have built response capabilities that 
are second to none. New Jersey Department of Education has staff 
embedded with NJOHSP and conducts unannounced school security drills 
across the State to test both plans and the actions of faculty and 
staff in a controlled, realistic environment. NJOHSP continues to offer 
large-scale active-shooter exercises for K-12 schools, including 
facilitating 2 last year in Bergen and Warren Counties.
    We recognize the consistent need to expand security capabilities, 
focusing on where mass gatherings of people occur, what those common 
vulnerabilities are, and ensuring that individuals, especially school 
children, know what to do when circumstances deviate from those they 
have practiced. To that end, our colleges and universities are 
participating in a new Mass Gathering Working Group to address these 
common vulnerabilities and build missing capabilities at locations 
where students gather throughout the State.
    We will continue to ensure that our plans do not just account for 
the security of the building, but build capabilities that empower the 
safety of their precious content--our children. We are currently 
working with the Office of the Secretary of Higher Education, the New 
Jersey Office of Emergency Management, and the New Jersey Department of 
Health to review every institution of higher education's emergency 
operations plan, an effort required by New Jersey statute.
    We will expand training models and traditional planning assumptions 
to address changing tactics and enable capabilities to deviate from the 
plans as situations dictate. We have already begun to transform our 
thinking and focus on these essential areas. Over the past 2 years, the 
State has continually implemented recommendations from the 2015 New 
Jersey School Security Task Force Report, including:
  <bullet> The creation of the New Jersey School Safety Specialist 
        Academy and Certification Program;
  <bullet> Annual security training for public and non-public school 
        employees;
  <bullet> Additional training and qualifications of Class III Special 
        Law Enforcement Officers at schools and county colleges; and,
  <bullet> New school construction to incorporate security measures 
        into architectural design.
    Subsequently, we have created a School Security Subcommittee on the 
State's Domestic Security Preparedness Task Force to coordinate 
horizontally across State agencies, and integrate vertically with 
National priorities and local needs. Part of that effort includes 
conducting security assessments at schools, as well as providing 
assessment training for local enforcement partners who can serve as 
force multipliers to enhance security capabilities in schools 
throughout the State.
                               conclusion
    Unfortunately, attacks on schools are just one facet of a larger 
security threat to open access public facilities with limited security 
and free movement. At the moment there remains a need to address 
concerns and lack of information sharing among mass gathering 
facilities such as amusement parks, arenas, casinos, colleges and 
universities, convention centers, stadiums, and any other venues that 
could be a potential target.
    Through efforts such as the aforementioned Mass Gathering Working 
Group, the Hometown Security Initiative, and our new Secure the Shore 
Initiative, we are working to protect all of New Jersey from 
terroristic threats to our public spaces. Work remains, but there are 
people dedicated to getting it right. We will focus on prevention. We 
will innovate. We will continue to build those capabilities that are 
vital to our overall security.
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the subcommittee. I thank you again for the opportunity to testify 
today. Under Governor Murphy's leadership, we will continue to adapt to 
meet the current threat environment and better secure our schools 
through a whole-of-Government approach. I look forward to your 
questions, and yield back to the Chairman.

    Mr. Donovan. Thank you, Mr. Maples.
    The Chair now recognizes Mr. Castillo.

     STATEMENT OF BEN CASTILLO, DIRECTOR, OFFICE OF SCHOOL 
 PREPAREDNESS AND EMERGENCY PLANNING, DEPARTMENT OF EDUCATION, 
                      STATE OF NEW JERSEY

    Mr. Castillo. Thank you, sir. Good morning, Chairman 
Donovan, Ranking Member Payne. Thank you for this opportunity 
to testify today on behalf of the New Jersey Department of 
Education to highlight our efforts in school security.
    I first wish to convey my regrets for Commissioner Lamont 
Repollet for not being here today, but I thank him for 
entrusting me with this important task. I know I speak for the 
commissioner when I say that he is personally and 
professionally committed to school security. It is why he is 
committed to the work of the School Security Subcommittee for 
the New Jersey Domestic Security and Preparedness Task Force, 
which Director Maples had referenced. It is also why he was 
honored to provide an opportunity to attend this hearing to our 
summer interns, seated behind us, students who will be our next 
generation of teachers, principals, and parents who deserve a 
seat to hear this important conversation. We are thrilled that 
many of them are here with us this morning.
    As Director Maples had mentioned, New Jersey has over 600 
public schools and charter schools. In addition to that, there 
are over 1,400 non-public schools serving almost 225,000 
students. This equates to approximately 1.6 million students in 
New Jersey's schools daily. During the academic year, most of 
our children spend fully a third of their formative years in 
schools. It is not only where they do their work of learning, 
but it is also where they socialize with their friends, they 
eat, they play, from kindergarten through high school. Recent 
tragic acts of school violence around the country remind all of 
us of our central moral and professional responsibility of 
keeping our children in a safe and nurturing environment so 
they can develop and mature to their fullest potentials.
    To that end, the New Jersey Department of Education, along 
with its partners and stakeholders, have been seeking to 
improve student safety through a multifaceted and student-
centered approach that builds positive school cultures and 
socio-emotional learning in addition to the security postures 
of school buildings within the K-12 realm. Together with our 
sister agencies, including the New Jersey Departments of 
Community Affairs, Health, Children and Families, Law and 
Public Safety, Office of Homeland Security and Preparedness, 
State Police, and many other Federal and local government and 
non-government partners, we have established the 
Intergovernmental School Safety Group, and we have made student 
safety a core part of our departments' value structure. This 
model captures the commissioner's improvement model of ACE: 
Assess, Create, and Execute. As a group we are assessing the 
school security needs of the State and creating and executing 
solutions.
    For example, current administrative code requires districts 
to have written, comprehensive all-hazards school safety and 
security plans. Legislative mandates also require all schools 
to conduct a school security drill each month, in addition to 
the regular fire drill. This may very well represent the most 
robust school security drill schedule in the Nation.
    Furthermore, a number of recent directives were passed 
which further enhance school security efforts, many of which 
were mentioned by Director Maples, and they continue to be in 
force.
    In addition to the adoption of the latest school security 
task force recommendations, the Department of Education 
provides guidance to further enhance school safety and 
security. In our view, of the 14 issues studied by the task 
force, and of the 42 recommendations offered in its final 
report, the establishment of the New Jersey School Safety 
Specialist Academy and the associated School Safety Specialist 
Certification Program are the most impactful. The enabling 
legislation requires each school district to designate a school 
administrator to be certified as a school safety specialist. 
These school safety specialists will be our most valuable 
points of contact in each school district with whom we can 
share information and make direct contact should situations 
warrant. They will be required to train annually on topics 
including bullying, hazing, emergency planning, emergency 
drills, drugs, weapons, gangs, and school policing. 
Additionally, as a result of concerns voiced by district 
personnel, we also included blocks of instruction on physical 
security, bomb threat awareness and response, security 
considerations for front office staff, school bus 
transportation, and others.
    Through the Office of School Preparedness and Emergency 
Planning, the Department has been diligently providing 
training, guidance, and assistance at the grassroots levels of 
our K-12 educational communities. Through our outreach efforts, 
we share preventive strategies and promising practices, and 
identify many security challenges faced by our schools.
    Our unannounced drill observation initiative has provided 
opportunities for members of our office to collaborate directly 
with schools. Since the 2014-2015 school year, we have 
conducted over 850 such observations. This outreach has led to 
an increasing number of requests for technical assistance, 
which have resulted in members of our office providing 
professional development sessions for school staff and 
presentations to parents and board members.
    Our office has provided site-specific security 
observations, school safety and security plan reviews, and 
drill guidance. We have responded to 205 requests for technical 
assistance, provided 121 presentations to educational 
organizations, and conducted 91 training assemblies.
    I see I am very close to my time. May I continue, sir? 
Thank you.
    We, along with our partner agencies, understand that no 
single entity bears the responsibility nor possesses the 
capability to keep our students safe. There must be a 
concerted, comprehensive, continual effort to make and keep our 
schools as secure as possible.
    We have partnered with U.S. Department of Education and the 
Readiness and Emergency Management for Schools Technical 
Assistance Center, FEMA, our own Office of Homeland Security 
and Preparedness, the New Jersey State Police, our respective 
county prosecutors' offices, local police, and others, in a 
collaborative effort to improve school security. In partnership 
with the Disaster and Terrorism Branch of the New Jersey 
Department of Human Services, we provided training in 
Comprehensive Active-Shooter Incident Management for Schools, 
which speaks to the importance of emotional components before, 
during, and after such horrific events.
    To enhance information sharing, the Office of the Regional 
Operations and Intelligence Center, in concert with our 
department and the Office of Homeland Security and New Jersey 
State Police, developed Intelligence Dissemination Reports for 
the school sector. These were most recently distributed 
following the aftermath of the shootings in Parkland, Florida; 
in anticipation of the school walkouts which occurred across 
the Nation; and prior to high school graduations to provide 
situational awareness to schools throughout the State. We will 
continue to seek additional collaboration in efforts to more 
broadly face the challenges of school security.
    Despite what seems to be a mounting tide of senseless 
violence occurring within our schools, schools overall remain 
relatively safe places for our children. However, we cannot 
remain idly by and allow injury, both emotional and physical, 
and deaths to occur among our students. We must reject that 
this is the new normal. We must not only stem the tide of 
school violence but turn it back. We must pledge to do more.
    So in closing, if I may paraphrase Commissioner Repollet, 
``While we cannot control individual student behavior, we must 
continue to provide guidance and support through training and 
resources to the school districts in order to identify 
promising practices and effective preventive strategies.''
    This has been our mission, and we, along with our partners 
and stakeholders in school security, will continue to do so to 
the best of our abilities.
    I thank you again for the opportunity to address the 
committee.
    [The prepared statement of Mr. Castillo follows:]
                   Prepared Statement of Ben Castillo
                              July 9, 2018
                              introduction
    Good morning Chairman Donovan, Ranking Member Payne, and 
distinguished Members of the subcommittee. I am Ben Castillo, director 
of the New Jersey Department of Education's Office of School 
Preparedness and Emergency Planning. Thank you for this opportunity to 
testify today on behalf of the New Jersey Department of Education to 
highlight our efforts in school security.
    I wish to convey to the subcommittee, the regrets of our 
Commissioner, Dr. Lamont Repollet for not being here today, but I thank 
him for entrusting me with this important task. I know I speak for the 
Commissioner when I say that he is personally and professionally 
committed to school security. It's why he was named co-chair of the 
school security subcommittee for the NJ Department of Homeland Security 
and Preparedness. It's also why he was honored to provide an 
opportunity to attend this hearing to our summer interns, students who 
will be our next generation of teachers, principals, and parents who 
deserve a seat at the table to participate in this conversation. We are 
thrilled that many of them are here with us this afternoon.
    As you may know, New Jersey has over 600 public school districts 
and charter schools encompassing over 2,500 schools. Additionally, 
there are over 1,400 nonpublic schools serving almost 225,000 students. 
This equates to approximately 1.6 million students in New Jersey's 
school daily. During the academic year, most of our children spend 
fully a third of their formative years in schools. It's not only where 
students learn, but it's also where they socialize with their friends, 
eat, and play--from kindergarten through high school. Recent tragic 
acts of school violence around the country remind all of us of our 
central moral and professional responsibility of keeping our children 
in a safe and nurturing environment so they can develop and mature to 
their fullest potentials.
            administrative code and legislative requirements
    To that end, the NJDOE, along with its partners and stakeholders 
have been seeking to improve student safety through a multi-faceted and 
student-centered approach that builds positive school cultures and 
socio-emotional learning in addition to the security postures of school 
buildings within the K-12 realm. Together with our sister State 
agencies, including the Departments of Community Affairs, Health, 
Children and Families, Law and Public Safety, Office of Homeland 
Security and Preparedness, State Police and many other Federal and 
local government and non-government partners, we have established the 
Intergovernmental School Safety Group and we've made student safety a 
core part of our departments' value structure. This model captures the 
Commissioner's improvement model of ACE: Assess, Create, and Execute. 
As a group we are assessing the school security needs of the State and 
creating and executing solutions.
    For example, current administrative code requires districts to have 
written, comprehensive all-hazards school safety and security plans. 
These emergency operating plans are the cornerstones which are relied 
upon in emergencies; and from which planning, training, and drills are 
based. Legislative mandate also requires all schools to conduct a 
school security drill each month, in addition to the mandatory monthly 
fire drill. This may well represent the most robust school security 
drill schedule in the Nation. Furthermore, a number of recent 
directives were passed which further enhance school security efforts. 
Many of these resulted directly from the work of the New Jersey School 
Security Task Force, an interagency group created by State law in 2014 
charged with studying and developing recommendations to improve school 
safety and security. In addition to the adoption of the latest school 
security task force recommendations, the DOE provides guidance to 
further enhance school safety and security.
    In our view, of the 14 issues studied by the task force; and of the 
41 recommendations offered in their final report, the establishment of 
the New Jersey School Safety Specialist Academy and the associated 
School Safety Specialist Certification Program, are the most impactful. 
The enabling legislation requires each school district to designate a 
school administrator to be certified as a school safety specialist. 
These school safety specialists will be our most valuable points of 
contact in each school district with whom we can share information and 
make direct contact should situations warrant. They will be required to 
train annually on topics including bullying, hazing, emergency 
planning, emergency drills, drugs, weapons, gangs, and school policing. 
Additionally, as a result of concerns voiced by district personnel, we 
also included blocks of instruction on physical security, bomb threat 
awareness and response, security considerations for front office staff, 
school bus transportation, and others.
                     njdoe school security efforts
    Through the Office of School Preparedness and Emergency Planning, 
the DOE has been diligently providing training, guidance, and 
assistance at the grassroots levels of our K-12 educational 
communities. Through our outreach efforts, we share preventative 
strategies and promising practices, and identified many security 
challenges faced by our schools.
    Our unannounced drill observation initiative has provided 
opportunities for members of our office to collaborate directly with 
schools. Since the 2014-2015 school year, we have conducted over 850 
such observations. This outreach has led to an increasing number of 
requests for technical assistance, which have resulted in members of 
our office providing professional development sessions for school staff 
and presentations to parent and board members, and other audiences. Our 
office has provided site-specific security observations, school safety 
and security plan reviews, and drill guidance. We've responded to 205 
technical assistance requests, provided 121 presentations to 
educational organizations, and conducted 91 training assemblies. Just 
last week, the Governor underlined the State's on-going commitment to 
school safety by signing a State budget that significantly increased 
the State's investment in Security Aid, allowing districts the 
flexibility to support school safety initiatives that fit the needs of 
their students.
    While I can speak primarily to the Department's on-going work 
regarding school security, a holistic approach to ensuring the safety, 
including preventive efforts, is vital. The DOE understands the 
importance of building strong, healthy, and positive school cultures 
through social-emotional learning. The NJDOE's prevention and 
intervention efforts to create an environment where students feel safe 
to learn, align with New Jersey's anti-bullying law. Districts are 
required to adopt and implement anti-bullying policies which include 
prevention, responding to allegations, and reporting. Each school is 
required to have a school safety/school climate team to focus on 
developing, fostering, and maintaining positive school climates. A 
School Climate Survey has been developed as part of a data-driven 
school climate improvement process to inform development and 
implementation of a School Climate Improvement Plan.
                              partnerships
    We, along with our partner agencies understand that no single 
entity bears the responsibility, nor the possesses the capability to 
keep our students safe. There must be a concerted, comprehensive, 
continual effort to make and keep our schools as secure as possible. We 
have partnered with U.S. Department of Education and the Readiness and 
Emergency Management for Schools Technical Assistance Center, FEMA, our 
own Office of Homeland Security and Preparedness, the New Jersey State 
Police, Department of Human Services, our respective County 
Prosecutors' Offices, local police, and others, in a collaborative 
effort to improve school security. In partnership with the Disaster and 
Terrorism Branch of the New Jersey Department of Human Services, we 
provided training in Comprehensive Active-Shooter Incident Management 
for Schools which speaks to the importance of emotional components 
before, during, and after such horrific events. To enhance information 
sharing, the Office of the Regional Operations and Intelligence Center, 
in concert with our department and the Office of Homeland Security and 
Preparedness, developed Intelligence Dissemination Reports for the 
school sector. These were most recently provided following the 
aftermath of the school shootings in Parkland, Florida; in anticipation 
of the school walkouts which occurred across the Nation; and prior to 
high school graduation ceremonies to provide situational awareness to 
schools throughout the State. We will continue to seek additional 
collaboration in efforts to more broadly face the challenges of school 
safety.
    Finally, in an effort to learn from our colleagues around the 
Nation who are all seeking to improve school safety and security in the 
wake of the track act of school violence at Parkland Florida, in May of 
this year the Commissioner and I attended a school safety training 
hosted by the Indiana Department of Education. It was an honor to be a 
guest of the Indiana Department of Education to learn how their school 
and district leaders engage State and National best practices in school 
safety. We look forward to attending additional professional learning 
opportunities in the future.
                               conclusion
    Despite what seems to be a mounting tide of senseless violence 
occurring within our schools; schools overall, remain relatively safe 
places for our children. However, we cannot remain idly by and allow 
injury, both emotional and physical, and deaths to occur among our 
students. We must reject that this is the new normal, stem, and turn 
back the tide of school violence. We must pledge to do more.
    Paraphrasing Commissioner Repollet: `` . . . while we cannot 
control individual student behavior we [must continue] to provide 
guidance and support through training and resources to the school 
districts in order to identify promising practices and effective 
preventative strategies.'' This has been our mission, and we, along 
with our partners and stakeholders in school security will continue to 
do so to the best of our abilities.
    I again thank you for the opportunity to address this esteemed 
subcommittee.

    Mr. Donovan. Thank you, sir.
    The Chair now recognizes Major Hengemuhle.

STATEMENT OF JEANNE HENGEMUHLE, COMMANDING OFFICER, DIVISION OF 
        HUMAN RESOURCES SECTION, NEW JERSEY STATE POLICE

    Ms. Hengemuhle. Good morning, Chairman Donovan, Ranking 
Member Payne. Thank you for the opportunity to testify before 
you today. I am Major Jeanne Hengemuhle, commanding officer of 
the Division Human Resources Section.
    The Division of State Police consists of four primary 
branches. Through these branches, the division preserves the 
ability to augment assets to address all hazards and threats 
from a holistic approach. Each branch works both independently 
and in concert as they pool resources to address the State's 
most pressing concerns. The members within these branches 
actively seek out and maintain crucial relationships with 
outside entities, community leaders, school administrators, and 
other stakeholders to promote our abilities to counter school 
violence and to implement initiatives on school safety and 
security.
    School safety and security plans as mandated by the 
Department of Education effectively outline the State's 
approach in preparing for threats and hazards that pose the 
greatest risk to the security and safety of New Jersey schools. 
Through the direction of the Department of Education, all 
school districts in New Jersey are required to have a school 
safety and security plan. These plans include procedures to 
respond to critical incidents. All plans for those schools 
located in State Police-patrolled areas are housed in both hard 
copy and electronic copy so they are immediately available to 
Troopers if an emergent situation occurs.
    One constant message across all branches within the 
Division is to develop innovative strategies and partnerships 
with public and private entities to prevent, protect, and 
respond to threats that specifically target our schools. 
Evidence of this resides within the School Safety and Outreach 
Unit, which was recreated under the Division's Recruiting and 
Employee Development Bureau and is principally responsible for 
school safety and community outreach programs. They have 
established a partnership with the Department of Education, 
Office of School Preparedness and Emergency Planning. Members 
of the School Safety and Outreach Unit have participated in and 
supported school safety and security planning efforts, which 
include unannounced visits/drills and security planning 
efforts, instructing anti-bullying and anti-violence programs, 
and delivering drug prevention programs such as Law Enforcement 
Against Drugs, LEAD.
    The New Jersey State Police participates in the majority of 
the unannounced drills conducted State-wide. Led by the 
Department of Education, the unannounced drills provide 
technical assistance and support to schools with their 
preparedness efforts, while sharing best practices observed in 
these other districts. The evaluation of the drill is 
informational and provides an opportunity for cooperative 
collaboration.
    Presenting and instructing various programs through our 
School Safety and Outreach Unit demonstrates the State Police's 
commitment to protecting our youth and communities from the 
proliferation of drugs, drug-related crimes, peer-to-peer cyber 
bullying, and violence.
    The Division has also partnered with the New Jersey 
Department of Homeland Security and Preparedness in a 
coordinated effort in planning and active participation in 
active-shooter exercises. These exercises are intended to test 
our abilities to respond effectively and efficiently to any 
hazards and threats to our communities and schools. The New 
Jersey State Police has looked at best practices in responding 
to an active-shooter incident and has just begun rolling out a 
restructure of our current protocols.
    Field Operations Troopers normally assigned to general 
policing stations throughout the State have received additional 
training and certifications, and are positioned as School 
Resource Troopers for 9 regional high schools. They have the 
ability to immediately respond to all hazards and threats while 
providing instruction to students on a variety of topics and 
lessons at the school administration's request. The Troopers' 
presence also provides a sense of comfort and deterrence while 
further building public and community trust in law enforcement.
    Finally, in an attempt to further bolster school safety and 
public trust in law enforcement, the superintendent, Colonel 
Patrick Callahan, with the support of the Governor and the 
attorney general, has encouraged all enlisted members to visit 
schools where the State police is the sole provider of law 
enforcement services. These unannounced visits take place while 
members are traversing the State during the course of their day 
or in route to and from their primary work assignments. The 
randomness of this program also affords the State Police 
another layer of security via visible deterrence while building 
community relations and trust with school entities.
    Collaboration and community trust are essential components 
that need to be developed and fostered in order to sustain 
strong relations with our community leaders and school 
administrators. The reality is that the State police, or any 
single law enforcement entity, lacks the personnel to 
appropriately address all hazards and threats independently.
    The collaborative working relationship between the State 
police, the Governor's office, the Office of Attorney General, 
Office of Homeland Security, and all of the departments 
critical to school safety will allow New Jersey to strengthen 
our plans and responses with regard to school safety.
    Thank you for the opportunity to testify before you today.
    [The prepared statement of Ms. Hengemuhle follows:]
                Prepared Statement of Jeanne Hengemuhle
                              July 9, 2018
    Good Morning Chairman Donovan, Ranking Member Payne, and Members of 
the subcommittee, thank you for the opportunity to testify before you 
today. I am honored to speak on behalf of the dedicated professionals 
of the New Jersey State Police. I am Major Jeanne Hengemuhle, 
commanding officer of the Division Human Resources Section of the New 
Jersey State Police.
    The division of State Police consists of four primary branches: 
Administration, Investigations, Homeland Security, and Operations. 
Through these branches, the division preserves the ability to augment 
assets to address all-hazards and threats from a holistic approach. 
Each branch works both independently and in concert, as they pool 
resources to address the State's most pressing concerns. The members 
within these branches actively seek out and maintain crucial 
relationships with outside agencies, community leaders, school 
administrators and other stakeholders to promote our abilities to 
counter school violence and to implement initiatives on school safety 
and security.
    Under the direction of Attorney General Grewal, school safety and 
security has been enhanced. On March 26 of this year, General Grewal 
updated Directive 2016-7, to add school to the list of soft targets on 
Suspicious Activities Reports. By doing this, all threats of violence 
against schools (in any form, through any medium and from any source) 
are reported to the Regional Operations and Intelligence Center (ROIC) 
and the county terrorism coordinator. Now, the New Jersey Office of 
Homeland Security and Preparedness (O.H.S.P.) and the ROIC can analyze, 
track and disseminate threats against schools on a joint Intelligence 
Dissemination Report which reaches law enforcement and school 
superintendents State-wide, to name just a few entities. This flow of 
information allows New Jersey law enforcement to strengthen their 
ability to deter and/or stop school violence.
    School safety and security plans as mandated by the Department of 
Education in (6A:16-5.1), effectively outline the State's approach in 
preparing for threats and hazards that pose the greatest risk to the 
security and safety of New Jersey schools. Through the direction of the 
Department of Education, all school districts in New Jersey are 
required to have a school safety and security plan. Each plan must be 
designed locally with the help of law enforcement, emergency management 
officials, public health officials, and other key stakeholders. All 
plans must be reviewed and updated on an annual basis. These plans 
include procedures to respond to critical incidents ranging from bomb 
threats, fires and gas leaks, to an active-shooter situation. All plans 
for those schools located in State Police patrolled area are housed in 
both hard copy and electronic copy so they are immediately available to 
troopers if an emergent situation occurs.
    The threat and reality of an active-shooter situation in our 
schools has become all too familiar in the United States. While, here 
in New Jersey, we have been generally spared from the truly horrific 
events that have plagued other communities, we still need to plan 
accordingly, collaborate, and to trust in our partner agencies in order 
to prevent these criminal acts. In the past, the New Jersey State 
Police has assumed a signature role in defending the State and its 
communities against these crimes. However, a justly comprehensive 
preparedness plan is a communal responsibility that requires a public 
effort in promoting safety and resilience through shared common goals 
and trust. It is vital that all partners build, organize, and enhance 
security and safety capabilities in a unified approach to be better 
prepared to counter all-hazards and threats in our communities and 
schools.
    One constant message across all branches within the division is to 
develop innovative strategies and partnerships with public and private 
entities to prevent, protect, and respond to threats that specifically 
target our schools. Evidence of this resides within the School Safety & 
Outreach Unit, which was recreated under the Division's Recruiting & 
Employee Development Bureau, and is principally responsible for school 
safety and community outreach programs. They have established a 
partnership with the Department of Education, Office of School 
Preparedness and Emergency Planning. Members of the School Safety & 
Outreach Unit have participated in and supported school safety and 
security planning efforts, which include ``Unannounced Visits/Drills 
(UAD),'' instructing anti-bullying and anti-violence programs, and 
delivering drug prevention programs (such as, Law Enforcement Against 
Drugs--L.E.A.D.).
    The New Jersey State Police participates in the majority of the 
UAD's conducted State-wide. Led by the Department of Education, the 
unannounced drills provide technical assistance and support to schools 
with their preparedness efforts, while sharing best practices observed 
in other districts. The evaluation of the drill is informational and 
provides an opportunity for cooperative collaboration. Only one 
scenario is drilled: Active Shooter. As of 6/12/18, 66 unannounced 
drills were conducted State-wide.
    By presenting and instructing anti-bullying, anti-violence, and 
drug prevention programs, the division is afforded the opportunity to 
address several concerns simultaneously. The most obvious benefit is 
establishing trust between communities and their schools and law 
enforcement officials. Further, these programs provide the State Police 
with an avenue to stage a steady and visible deterrence for those who 
may pose a threat or intend to inflict harm on our communities and in 
our schools. Last, having troopers instruct in the L.E.A.D. program, 
demonstrates the State Police's commitment to protecting our youth and 
communities from the proliferation of drugs, drug-related crimes, peer-
to-peer/cyber bullying, and violence.
    The division has also partnered with the O.H.S.P., in a coordinated 
effort in the planning, and active participation in ``Active-Shooter 
Exercises.'' These exercises are intended to test our abilities in 
responding effectively and efficiently to any hazards and threats to 
our communities and schools. Specialized units and personnel are 
dedicated from both the Division's Homeland Security and Operations 
Branches as they coordinate their responses in these drills. The New 
Jersey State Police has looked at best practices on responding to an 
active-shooter incident and has just begun rolling out a restructure of 
our current protocols.
    Field Operations Troopers normally assigned to general police 
stations throughout the State, have received additional training, 
certifications, and are positioned as school resource troopers for 9 
regional high schools. They have the ability to immediately respond to 
all hazards and threats, while providing instruction to students on a 
variety of topics and lessons at the school administration's request. 
The trooper's presence also provides a sense of comfort and deterrence, 
while further building public and community trust in law enforcement.
    Finally, in an attempt to further bolster school safety and public 
trust in law enforcement, the superintendent, Colonel Patrick Callahan, 
with support from the Governor and attorney general, has encouraged all 
enlisted members to visit schools where the State Police is the sole 
provider of law enforcement services. These unannounced visits take 
place while members are traversing the State during the course of their 
day or en route to and from their primary work assignment. The 
randomness of this program also affords the State Police another layer 
of security via visible deterrence, while building community relations 
and trust with school officials. In order to promote an open line of 
communication, all 21 county prosecutors received a letter from Colonel 
Callahan informing them of this initiative.
    The State Police must establish community relationships and 
maintain public trust in order to continue to educate, detect, deter, 
prevent, and respond effectively to all hazards and threats. 
Collaboration and community trust are essential components that need to 
be developed and fostered in order to sustain strong relations with our 
community leaders and school administrators. The reality is, the State 
Police, or any single law enforcement entity, lacks the personnel to 
appropriately address all-hazards and threats independently. The State 
Police must approach our training, response, deterrence, and 
initiatives from a global perspective, while partnering with community 
leaders, school officials, outside law enforcement agencies, and State 
Departments and Offices to better serve and protect the citizens of 
this State.
    The collaborative working relationship between the State Police and 
the Governor's office, Office of Attorney General, Office of Homeland 
Security, and all of the Departments critical to school safety will 
allow New Jersey to strengthen our plans and responses with regard to 
school safety.

    Mr. Donovan. Thank you, Major.
    Mr. Gerity.

     STATEMENT OF TIMOTHY P. GERITY, PRESIDENT, NEW JERSEY 
            ASSOCIATION OF SCHOOL RESOURCE OFFICERS

    Mr. Gerity. Thank you, sir. Chairman Donovan, Ranking 
Member Payne, my name is Timothy Gerity. I am president of the 
New Jersey Association of School Resource Officers. I am also a 
full-time sworn law enforcement officer in Saddle River in 
Bergen County. My current assignment is that of Detective 
Sergeant, municipal counter-terrorism coordinator and liaison 
to the schools. I am also a member of the Bergen County 
Prosecutor's Office Cyber Crimes Task Force and School Safety 
Task Force.
    In January 2002 I was assigned as a school resource officer 
to a K-5 elementary, K-12 private, and 9-12 regional high 
school. Over the course of my career I have had the opportunity 
to serve on numerous committees and task forces at the local, 
county, and State-wide level.
    One of those working groups which is of particular 
importance to my testimony today was the group that authored 
the Uniform State Memorandum of Agreement between law 
enforcement and education, or the MOA for short. This document, 
jointly issued by the New Jersey Department of Law and Public 
Safety and Department of Education, serves as a basis or guide 
for the interaction between law enforcement and education. That 
document has been updated in 1999, 2007, 2011, and 2015.
    The purpose of my testimony as president is to speak about 
the New Jersey Association of School Resource Officers. In 
2001, a new organization was incorporated in New Jersey, NJASRO 
for short. It is a not-for-profit 501(c)(3) organization for 
school-based law enforcement, school administrators, and school 
security safety professionals working as partners to protect 
students, school faculty and staff, and the schools they 
attend.
    Through planning and strategic lobbying, the organization 
was successful in having the Safe Schools Resource Officer 
School Liaison Training Law passed in 2006. Recognizing the 
significant importance of properly training law enforcement 
officers, the Police Training Act required the Police Training 
Commission, in consultation with the attorney general, to 
develop a 40-hour training course for safe schools resource 
officer school liaisons.
    Similarly, in Title 18 Part A Education, 18A:17-43.1, the 
same training course is required for service as a safe schools 
liaison to law enforcement.
    NJASRO has trained approximately 1,200 class attendees over 
the last 10 years. On average, we would hold 4 classes in 
police training commission-approved facilities around the 
State, with approximately 25 attendees. In 2018, we have 
scheduled 8 classes and have capped attendance for logistical 
purposes to 40 attendees. Earlier this year we held classes in 
Monmouth in Bergen County. For the remainder of the year we 
have classes scheduled in Monmouth, Union, Ocean, Essex, 
Atlantic, and Morris Counties. We have begun scheduling for 
2019 and have already booked Camden County for a January class.
    The 5-day class consists of instruction blocks that include 
but are not limited to school resource officer roles and 
responsibilities, school safety, behavior and risk assessment, 
counterterrorism, juvenile law, school searches and seizures, 
the Memorandum of Understanding, Title 18 Part A, mentoring, 
special needs, and working with the administration. Attendees 
must verify their employment with a law enforcement agency or 
provide documentation of their employment by a board of 
education. Our cadre of instructors includes active-duty law 
enforcement, retired law enforcement, and education 
representatives.
    I turn it back to the dais. Thank you, sir.
    [The prepared statement of Mr. Gerity follows:]
                Prepared Statement of Timothy P. Gerity
                              July 9, 2018
    My name is Timothy P. Gerity, president of the New Jersey 
Association of School Resource Officers (NJASRO). Thank you for taking 
time to hear from members of the public regarding the important issue 
of school safety.
    I am a resident of West Milford, New Jersey in Passaic County. I am 
the father of 3 children and a full-time sworn law enforcement officer 
with the Saddle River Police Department in Bergen County, New Jersey. I 
hold a Master of Administrative Science Degree from Fairleigh Dickinson 
University with graduate certificates in Administrative Science and 
School Safety and Administration. My current assignment is that of 
Detective Sergeant, Municipal Counter Terrorism Coordinator and liaison 
to the schools. I am also a member of the Bergen County Prosecutor's 
Office Cyber Crimes Task Force and School Safety Task Force.
    For the purposes of establishing my background in school safety I'd 
like to give a brief history. In 1994 I was assigned as a D.A.R.E 
officer to a public and private school. I went on to become a D.A.R.E 
mentor. A mentor is an individual who trains fellow officers on how to 
deliver certain curriculum in schools. In January 2002 I was assigned 
as a school resource officer to a K-5 elementary, K-12 private, and 9-
12 regional high school. Over the course of my career I have had the 
opportunity to serve on numerous school safety task forces and 
committees. These task forces and committees have been at the local, 
county, and State-wide level. I was a Schools Sector Facilities 
Subcommittee member of the New Jersey Domestic Security Preparedness 
Task Force responsible, in part, for making recommendations that were 
reduced to writing for the 2004 ``School Safety Manual Best Practices 
Guidelines.'' In 2005, as a representative of NJASRO, I participated in 
an initiative that would see every school in New Jersey visited by a 
school safety expert. This initiative facilitated the completion, as 
part of Best Practices, two separate documents; a Vulnerability 
Assessment and a Field Checklist. The field checklist was designed to 
audit compliance with selected aspects of school security best 
practices. The local use vulnerability assessment was designed to 
identify vulnerabilities within the school and generate recommendations 
to reduce the risks.
    I still remain active and involved with committees and task forces 
that continue to evolve as administrations change and the nature of 
threats and incidents also change. In the interest of brevity, I will 
not go in depth on all of my involvement on all of these initiatives 
however the work product of a particular working group of which I was a 
participant of bears significant relevance to this testimony. In 1988 
the Uniform State Memorandum of Agreement Between Law Enforcement and 
Education (MOA) was jointly issued by the New Jersey Department of Law 
and Public Safety and the Department of Education. This document 
continues to serve as a basis or guide for the interaction between law 
enforcement and education. The MOA addresses emerging issues in schools 
whether they are related to weapons, school safety, harassment, 
intimidation, and bullying or technology. It also addresses the sharing 
of information between education and law enforcement as well as law 
enforcement conducting operations on school grounds. Undergoing 
consistent updates, the document serves as a relevant and important 
piece of reference material for not only those who function within the 
school environment but also for those who create and execute school 
safety and security plans. The MOA was updated in 1992, 1999, 2007, 
2011, and 2015 by a committee of various representatives from sectors 
who have interest in both public and private educational institutions. 
I was a member of this working group up until 2011 but professional 
demands limited my availability. It is my goal to return as a seated 
member of this working group.
    The purpose of my testimony, as president, is to speak about the 
New Jersey Association of School Resource Officers. In November 2001, a 
new organization was incorporated in New Jersey. The New Jersey 
Association of School Resource Officers (NJASRO) is a not-for profit 
501(c)(3) organization. NJASRO is for school-based law enforcement 
officers, school administrators, and school security/safety 
professionals working as partners to protect students, school faculty 
and staff and the schools they attend. The true and tested strength in 
the School Resource Officer program is that it is much more than a 
curriculum. The SRO Concept can easily be adapted to the needs of ANY 
community, desiring safe schools, and effective community partnerships. 
The Mission Statement of the organization was and still is to:

``Provide a network of communications and training for New Jersey's 
School Resource Officers, Youth services personnel, School 
administrators, and Educators; Distribute and share advice, and 
coordinate information on the value of teaching elementary, middle, 
junior high, and high school students on the principles of good 
citizenship and community responsibility; Reduce school violence and 
drug abuse by enforcing violations of the law occurring on school 
property; Introduce programs that promote and enhance acceptable social 
behavior.''

    Through planning and strategic lobbying the organization was 
successful in having the Safe Schools Resource Officer/School Liaison 
Training Law passed in 2006. (Pub. L. 2005, c.276 (C.52:17B-71.8 et 
al.) ) Recognizing the significant importance of properly training law 
enforcement officers; the Police Training Act required the Police 
Training Commission in consultation with the Attorney General, to 
develop a 40-hour training course for safe schools resource officers/
school liaisons. Similarly in Title 18A Education--18A:17-43.1 the same 
training course is required for service as safe schools resource 
officer or liaison to law enforcement.

`` . . . board of education shall not assign a safe schools resource 
officer to a public school unless that individual first completes the 
safe schools resource officer training course.''
`` . . . board of education shall not assign an employee to serve as a 
school liaison to law enforcement unless that individual first 
completes the safe schools resource officer training course.''

    A Safe Schools Resource Officer/School Liaison Training Program 
provided by NJASRO was found to meet all statutory training 
requirements and was implemented in police academies throughout the 
State. This training supports Section 1.8 of the State-wide Memorandum 
of Understanding.

``It is recognized and agreed that without on-going active 
communication and cooperation among school and law enforcement 
officials the goals of this Agreement cannot be achieved. For this 
reason, Article 2 of this Agreement requires that law enforcement 
agencies and school districts designate one or more liaisons.''

    It is important to note that a safe and secure school environment 
requires the fostering of a supportive and nurturing learning 
environment, as well as protection from outside/inside threats. School 
Resource Officers, Class III Specials, school administrators, 
educators, and school safety professionals, properly trained, pursuant 
to C. 52:17 B-71.8, help to ensure that our children will learn in the 
most positive and constructive school environment possible.
    It is also important to note that while everyone involved in the 
process wanted to make schools safer for students and employees, there 
was also a concern that ``over policing'' in schools would have an 
impact on the learning environment of schools and negatively affect 
school culture. In 2009, the American Civil Liberties Union (ACLU) 
issued a White Paper: ``Policing in Schools, Developing a Governance 
Document for School Resource Officers in K-12 Schools.'' In it, the 
ACLU highlighted the importance of written guidelines for an SRO 
program and the need for support and training for the SRO to understand 
their role within the school and the rights and needs of the children 
they would serve. Without that understanding, the SRO might create an 
``adversarial environment that pushes students, particularly at-risk 
students, out of school rather than engaging them in a positive 
educational environment.'' The ACLU recommended that the SRO receive at 
least 40 hours of training at a minimum, to include topics such as 
adolescent development and psychology, working with special needs 
children, and cultural competency. NJASRO's Safe Schools Resource 
Officers/School Liaison Training pre-dates and meets the criteria.
    School resource officers (``SRO'') are ``police officers'' who have 
extensive training, experience with the juvenile justice system, and 
community policing in schools. They are role models, mentors, and act 
as a liaison between the police department, school administrators, and 
the local community. In many cases, SROs also teach classes such as the 
DARE curriculum to elementary students and play a vital role, on all 
levels, in identifying at-risk students, cases of abuse, intervene in 
drug and alcohol use and provide support for students who feel they 
have no one to turn to. SROs also provide law-related education to high 
school students in driver's education and business-related classes, 
among other courses.
    While most would agree that a full-time police officer who is also 
a school resource officer is the ideal solution, this option is out of 
reach to many New Jersey districts because of budgetary restrictions. A 
full-time officer who is an SRO can cost in excess of $100,000, per 
year, per officer, including salary and benefits. Also, a full-time 
officer can be ordered to respond to police matters outside of schools 
causing them to leave school grounds during the school day. As a 
compromise to the desire to have full-time SROs in schools, balanced 
against the significant cost and the 2 percent budget cap for New 
Jersey public schools, the legislature offered a solution in 2016. 
NJASRO played a substantial role in providing pertinent information and 
proposing legislative language to find a solution to provide high-
quality and cost-effective safety measures for schools. With the 
signing of Senate Bill 86, the creation of Special Law Enforcement 
Officer--Class III (``SLEO Class III'') a 2015 legislative Task Force 
recommendation was signed into law.
    The creation of the SLEO Class III now allows school districts to 
have a more affordable option to enhance school security and increase 
the number of highly-trained SROs in New Jersey Schools. SLEO Class III 
officers are typically paid hourly and do not receive health and 
retirement benefits for this position. The Class III officer is 
generally hired by the chief of police of the local police department 
and is in his/her chain of command. Payment for these positions can be 
paid by the board of education, the municipality or on a fee-sharing 
basis. It is important for all sides involved from the superintendent 
of schools, mayor, and police chief to have an open and productive line 
of communication on this topic.
    However, even with the current proliferation of Class III officers, 
who are required to attend the Safe Schools Resource Officer/School 
Liaison training, the financial struggle remains the same for some 
districts. In the late 1990's the COPS Office, Community Oriented 
Policing Services, under the United States Department of Justice, 
offered a 4-year SRO grant program. The grant paid the costs of 
assigning an officer to the schools for the first 3 years. The 4th year 
was split between the community and the education entity. This is truly 
where assigning police officers to schools gained traction in New 
Jersey and became an accepted Community Policing Model. Unfortunately, 
after its seminal introduction, the grant was not renewed. In the past 
few years there has been some very limited, competitive grant 
opportunities available to offset the costs of assigning an SRO to 
schools. However, they have been few and far in between. Current 
Federal grant opportunities, in the school safety arena, support 
training programs, development of initiatives or lean toward installing 
technology. There are very few, if any, that financially support 
districts in putting ``boots on the ground.'' I'm hopeful that, through 
my testimony, there comes a renewed opportunity through State or 
Federal grants to help local districts pay for full-time SRO's, which 
by definition includes Class III Officers.
    NJASRO has trained approximately 1,200 class attendees over the 
last 10 years. On average we would hold 4 classes at Police Training 
Commission-approved facilities around the State with approximately 25 
attendees. In 2018 we've scheduled 8 classes and have capped 
attendance, for logistical purposes, to 40 attendees. Earlier this year 
we held classes in Monmouth County and Bergen County. For the remainder 
of the year we have classes scheduled in Monmouth, Union, Ocean, Essex, 
Atlantic, and Morris Counties. We've begun scheduling for 2019 and have 
already booked Camden County for a January class. The 5-day class 
consists of instruction blocks that include, but are not limited to, 
SRO roles and responsibilities, school safety, behavior and risk 
assessment, counterterrorism, juvenile law, school searches and 
seizures, Memorandum of Understanding, Title 18 A, mentoring, special 
needs and working with the administration. Attendees must verify their 
employment with a law enforcement agency or provide documentation of 
their employment by a Board of Education. Our cadre of instructors 
include active-duty law enforcement, retired law enforcement and 
education representatives.
    Security and vigilance has become standard practice in our 
Government buildings, airports, and other high-profile locations as 
part of our Nation's homeland security efforts. This has resulted in 
the dismantling of numerous terror plots and created an environment 
where terror attacks are more difficult to execute at these locations. 
In light of increased security measures at other locations, terror 
attacks on soft targets involving innocent civilians and often children 
are becoming an increasingly more desirable target for attacks. If 
schools are to be considered soft targets then planning teams must 
remain diligent and open-minded as they consider emerging threats. This 
is a complicated narrative as current trends dictate that emergency and 
crisis plans must be expanded to include the threats from Home-Grown 
Violent Extremists (HGVE's) and the use of encrypted social media by 
terrorist networks. This places a tremendous burden on school safety 
planners as the luxury of planning and preparing for an attack 
orchestrated by radical extremist groups outside the United States, has 
shifted to where the planning and preparation must include threats 
originating from those individuals who are currently members of our 
student population. While successful threat assessments are vital to 
preventing the next school shooting the assessments must now address 
those individuals who face potential radicalization as a result of 
perceived injustices, anger, and isolation. The shift in planning must 
overcome the belief that terror attacks will only come from outside 
sources.
    Given these challenges facing school safety planners an assessment 
must be made in how plans are drafted and executed. School 
administrators must be made aware of common radicalization techniques 
affecting student populations and be given effective programs to 
challenge on-line radicalization messaging. They must be aware of and 
be able to identify behavioral indicators and provide assistance to 
youth who are struggling to adjust within their community. This in turn 
may help children cope with their feelings of isolation, anger, and 
depression and reduce the opportunity for extremists to exploit these 
feelings for recruitment.
    There are ample opportunities to assist youth and many techniques 
are already in use as schools look to prevent bias incidents and 
bullying from occurring. Schools could convene students from varying 
cultural backgrounds to promote cultural understanding and provide 
educational opportunities on aspects of different cultures. They could 
promote open discussions with the assistance of the community and 
religious centers about conflicts and ways that violent extremists may 
use religion to justify their actions. These few improvements in 
training, educating, and providing resources may greatly reduce the 
likelihood of a terror attack from within on a U.S. school.
    New Jersey has long recognized the importance and value of a safe 
and secure school environment. It has also recognized that safety and 
security must be in balance with a school's main function which is to 
educate our children. School violence is a complex issue that can 
result in a never-ending debate amongst scholars in all fields of 
study. The common agreeable element amongst those who debate the topic 
is the fact we, as a society, need to do more to protect the school 
population. If we look at the history of initiatives in New Jersey, 
from 1988 to 2018 we see guides, task force creations, documents, 
manuals, electronic databases, plans, codes, directives, 
recommendations, laws, minimum requirements, and reports. NJASRO is 
proud to have participated in the latest State-wide school safety 
initiative. Just last week the New Jersey Department of Education held 
its School Safety Specialist Certification Training. I was proud to 
write the curriculum for and present on the topic of Law Enforcement 
and Education Partnerships. All of the initiatives, recognized or 
unrecognized, are the result of the due diligence in the areas of 
school safety and security by the countless members of various State 
agencies, task forces, working groups, and committees.
    While continued public meetings and community discussion are 
valuable platforms, true change will only come through action. Adequate 
resources also need to be allocated to enable schools to pursue these 
measures, and mechanisms need to be put in place to ensure compliance.

    Mr. Donovan. Thank you, Mr. Gerity.
    The Chair now recognizes Mr. Reilly.

  STATEMENT OF MICHAEL REILLY, PRESIDENT, COMMUNITY EDUCATION 
              COUNCIL 31, STATEN ISLAND, NEW YORK

    Mr. Reilly. Thank you, Mr. Chairman Donovan and Ranking 
Member Payne, for inviting me to testify today.
    One of the most frightening things a parent can hear is 
that there is an emergency incident at their child's school. We 
feel vulnerable, and our first thought is to immediately go to 
the school. Parents and guardians should not respond to the 
school unless they receive official notification to do so. If a 
school has activated a shelter-in--the incident is in close 
proximity but outside the school building--or a hard lockdown--
incident is in the actual school building--parents and all non-
emergency personnel will not be allowed into the building, and 
all staff and students will not be allowed to leave the 
building without authorization from emergency responders.
    An increase in vehicles and people at the school can 
interfere with emergency personnel responding to the incident. 
The first priority is to have a clear pathway for emergency 
responders to ensure everyone's safety.
    Communication. There are certain circumstances when the 
NYPD and the DOE will limit what details are released. Although 
that may seem inappropriate, there is a legal reason. If 
preliminary details are included in a community notification 
and later determined to be inaccurate, that may jeopardize a 
criminal case. All paperwork and communications generated by 
the NYPD and the DOE are evidence and, as such, required to be 
handed over to a defendant's attorney. For instance, if a 
community notification lists a specific license plate, color, 
make, and model of a vehicle used in a crime, and then it is 
determined that the initial information provided was incorrect, 
the suspect's defense attorney could use the incorrect 
information to possibly raise a reasonable doubt, limiting the 
chances of a conviction in a case.
    When an incident happens, word can travel like the 
telephone game. With today's technology it spreads faster, with 
even greater twists and embellishments. It is understandable 
that, in many cases, schools can't release specific details 
about an incident. That can change when the incident is deemed 
under control. Schools can and should communicate with families 
to address any safety concerns they may have. An email, letter, 
or robo-call acknowledging an incident occurred and reassuring 
that safety protocols were implemented can help alleviate 
community concerns.
    Providing notification to the school community should be a 
crucial part of a school's emergency response system. 
Communication builds trust and collaboration. Lack of 
communication leads to mistrust and gives the illusion that 
nothing is being done. That can be extremely damaging to a 
school community.
    It is also important to note that New York Education Law 
and the New York State Education Department mandate each public 
school to conduct at least 8 evacuation/fire drills and 4 
shelter-in/lockdown drills each year.
    New York City DOE school safety, emergency readiness. A 
vital component of emergency readiness within the DOE is the 
School Safety Plan. As part of the Safety Plan, schools/
campuses must identify individual staff members to become 
Building Response Team members. In campus settings, each school 
must have one representative on the BRT. The BRT members are 
hand-selected by the principal to manage all school-related 
emergencies until the first responders arrive. In addition, all 
schools implement General Response Protocols, GRP, which 
outline the initial actions to be taken if an incident requires 
evacuation, shelter-in, or a lockdown. These actions are based 
on the use of common language to initiate the measures all 
school communities will take in a variety of incidents.
    All staff and students receive training in the GRP, and 
drills are conducted at various times throughout the school 
year. Lessons have been designed for different grade levels so 
that the information is delivered to students without causing 
unnecessary alarm.
    Information about New York City DOE General Response 
Protocols is provided to parents on the schools.nyc.gov website 
to help guide conversations with their children about emergency 
readiness in schools.
    Community Education Council 31 has been advocating for 
greater security protocols for several years. In 2012, CEC 31 
introduced a proposal titled ``Comprehensive School Safety and 
Security,'' which included locking all doors, installing 
security cameras at main entrances to school buildings, 
improving School Building Response Team training, overhauling 
school public address systems, and incorporating retired police 
officers as special patrolmen to supplement school security.
    After discussing the proposal with our local, State, and 
Federal representatives, the plan was introduced in State 
legislation and signed into law by Governor Andrew Cuomo in 
2014. The laws authorized the New York State Education 
Department to provide grant opportunities to schools to improve 
infrastructure security--replacing doors, installing cameras 
and other technology for school buildings--mandating increased 
training for school emergency response teams and more frequent 
security drills. The law also allows school districts to hire 
retired police officers as school resource officers. In 
addition, in the same time period, DOJ authorized the use of 
civilian clothes school resource officers, which aligned with 
the CEC 31 plan. Until then, the Federal grant opportunity only 
applied to uniformed school resource officers.
    After the Sandy Hook tragedy, a principal on Staten Island 
was proactive and locked the front door. Unfortunately, the 
school safety agent assigned to the school filed a grievance, 
claiming it wasn't in their job description to get up each time 
someone knocked to open the door. These types of shortfalls in 
security can and must be adjusted to ensure the safety and 
security of our schools.
    Some have raised concerns that locking the front door may 
hinder emergency responders because they may not be able to 
access the building as quickly as possible. I believe the use 
of a key fob, pass key, or another similar technological access 
device could be utilized, allowing immediate entry for 
emergency responders. The FDNY has a similar system where they 
utilize a master key for elevator access across the city.
    It is important to remember that it is impossible to 
prevent all incidents, but we must continually try our best to 
limit the impact if an emergency occurs.
    CEC 31 believes there are several other protocols and 
supplemental supports that can help school communities. 
Improving communication between agencies would be beneficial. 
The NYPD and DOE do a tremendous job protecting our schools, 
but like everything else, there is always room for improvement. 
Having a regional Fusion Center model to monitor and track 
incidents and threats to schools could streamline information 
sharing to mitigate the possibility of missing an important 
trend or piece of information.
    Additionally, providing training and potential requirements 
at the Federal level for school districts to report incidents 
of bullying or threats, as well as the disposition of all 
incident investigations, could help identify students who may 
need additional support and/or counseling. Adding additional 
counselors to our schools would be a proactive step, but as I 
am sure you are aware, that requires funding.
    Last, after a recent incident at a high school in Staten 
Island involving a potential threat with a firearm, we held a 
safety meeting with our elected officials as well as the DOE 
and NYPD. We spoke about the impact to the response caused by 
parents and caregivers rushing to the school at the onset of 
the emergency situation.
    During that meeting we discussed incorporating a family 
staging area in school safety plans. This staging area would be 
a safe distance away from each school building. The school 
would send an email, family/community notification, that would 
include the staging location, which would be positioned a safe 
distance from the school building. Having a staging area could 
reduce potential obstacles emergency responders may encounter, 
increasing response times and saving lives. A staging area 
would allow emergency responders to focus resources on the 
initial incident and not redirect personnel for crowd control 
at the immediate incident scene.
    If possible, would DHS consider incorporating a parent/
community video and training piece in the Emergency Management 
Institute Independent Study Program, suggesting schools 
incorporate a staging area and the importance for parents and 
other community members to wait for a notification and only 
respond to officially designated staging areas?
    I thank you for your time and allowing me to testify, and I 
yield back to the Chair. Thank you.
    [The prepared statement of Mr. Reilly follows:]
                  Prepared Statement of Michael Reilly
    Mr. Chairman, Ranking Member and Honorable Members. Thank you for 
inviting me to testify today.
    One of the most frightening things a parent can hear is that there 
is an emergency incident at their child's school. We feel vulnerable 
and our first thought is to immediately go to the school.
    Parents and guardians should NOT respond to the school unless they 
receive official notification to do so.
    If a school has activated a Shelter-In (the incident is in close 
proximity but outside the school building) or a Hard Lockdown (incident 
is in the actual school building) parents and all non-emergency 
personnel will NOT be allowed into the building and all staff and 
students will NOT be allowed to leave the building without 
authorization from emergency responders.
    An increase in vehicles and people at the school can interfere with 
emergency personnel responding to the incident. The first priority is 
to have a clear pathway for emergency responders to ensure everyone's 
safety.
                             communication
    There are certain circumstances when the NYPD and DOE will limit 
what details are released. Although that may seem inappropriate, there 
is a legal reason. If preliminary details are included in a community 
notification and later determined to be inaccurate, that may jeopardize 
a criminal case. All paperwork and communications generated by the NYPD 
and DOE are evidence, and as such, required to be handed over to a 
defendant's attorney.
    For instance; if a community notification lists a specific license 
plate, color, make, and model of a vehicle used in a crime and then it 
is determined that the initial information provided was incorrect, the 
suspect's defense attorney could use the incorrect information to 
possibly raise a reasonable doubt, limiting the chances of a conviction 
in a case.
    When an incident happens, word can travel like the telephone game. 
With today's technology, it spreads faster with even greater twists and 
embellishments. It is understandable that, in many cases, schools can't 
release specific details about an incident. That can change when the 
incident is deemed under control. Schools can and should communicate 
with families to address any safety concerns they may have. An email, 
letter, or robo-call acknowledging an incident occurred and reassuring 
that safety protocols were implemented can help alleviate community 
concerns.
    Providing notification to the school community should be a crucial 
part of a school's emergency response system. Communication builds 
trust and collaboration. Lack of communication leads to mistrust, and 
gives the illusion that nothing is being done. That can be extremely 
damaging to a school community.
    It is also important to note that New York Education Law and the 
New York State Education Department mandate each public school to 
conduct at least 8 evacuation/fire drills and 4 shelter-in/lockdown 
drills each year.
               nyc doe school safety: emergency readiness
    ``A vital component of emergency readiness within the DOE is the 
School Safety Plan (SSP). As part of the Safety Plan, schools/campuses 
must identify individual staff members to become Building Response Team 
members (BRT). In campus settings, each school must have one 
representative on the BRT. The BRT members are hand selected by the 
Principal to manage all school-related emergencies until the first 
responders arrive. In addition, all schools implement General Response 
Protocols (GRP), which outline the initial actions to be taken if an 
incident requires Evacuation, Shelter-In, or a Lockdown. These actions 
are based on the use of common language to initiate the measures all 
school communities will take in a variety of incidents.
    ``All staff and students receive training in the GRP and drills are 
conducted at various times throughout the school year. Lessons have 
been designed for different grade levels so that the information is 
delivered to students without causing unnecessary alarm.''
    Information about NYC DOE General Response Protocols is provided to 
parents on the schools.nyc.gov website to help guide conversations with 
their children about emergency readiness in schools.
    Community Education Council 31 has been advocating for greater 
security protocols for several years. In 2012 CEC 31 introduced a 
proposal--titled Comprehensive School Safety and Security--which 
included: Locking all doors; installing security cameras at main 
entrances to school buildings; improving School Building Response Team 
training; overhauling School Public Address systems, and incorporating 
retired police officers as special patrolmen to supplement school 
security.
    After discussing the proposal with our local, State, and Federal 
representatives the plan was introduced in State legislation and signed 
into law by Governor Andrew Cuomo in 2014. The laws authorized the NYS 
Education Department to provide grant opportunities to schools to 
improve infrastructure security (i.e. replacing doors, installing 
cameras, and other technology) for school buildings, mandating 
increased training for school emergency response teams, and more 
frequent security drills. The law also allows school districts to hire 
retired police officers as School Resource Officers. In addition, in 
the same time period, DOJ authorized the use of civilian clothes school 
resource officers, which aligned with the CEC 31 plan. Until then, the 
Federal grant opportunity only applied to uniformed school resource 
officers.
    After the Sandy Hook tragedy, a principal on Staten Island was 
proactive and locked the front door. Unfortunately, the school safety 
agent assigned to the school filed a grievance, claiming it wasn't in 
their job description to get up each time someone knocked to open the 
door. These types of shortfalls in security can and must be adjusted to 
ensure the safety and security of our schools.
    Some have raised concerns that locking the front door may hinder 
emergency responders because they may not be able to access the 
building as quickly as possible. I believe the use of a ``Key Fob'' 
pass key or another similar technological access device could be 
utilized, allowing immediate entry for emergency responders. The FDNY 
has a similar system where they utilize a ``Master Key'' for elevator 
access across the city.
    It is important to remember that it is impossible to prevent all 
incidents, but we must continually try our best to limit the impact if 
an emergency occurs.
    CEC 31 believes there are several other protocols and supplemental 
supports that can help school communities. Improving communication 
between agencies would be beneficial. The NYPD and DOE do a tremendous 
job protecting our schools, but like everything else there is always 
room for improvement. Having a regional ``Fusion Center'' model to 
monitor and track incidents and threats to schools could streamline 
information sharing to mitigate the possibility of missing an important 
trend or piece of information.
    Additionally, providing training and potential requirements at the 
Federal level for school districts to report incidents of bullying, 
threats, etc. as well as the disposition of all incident investigations 
could help identify students who may need additional support and/or 
counseling. Adding additional counselors to our schools would be a 
proactive step, but as I am sure you are aware that requires funding.
    Last, after a recent incident at a high school involving a 
potential threat with a firearm, we held a safety meeting with our 
elected officials as well as the DOE and NYPD. We spoke about the 
impact to the response caused by parents and caregivers rushing to the 
school at the onset of the emergency situation.
    During that meeting we discussed incorporating a family staging 
area in school safety plans. This staging area would be a safe distance 
away from each school building. The school would send an initial 
family/community notification that would include the staging location, 
which would be positioned a safe distance from the school building. 
Having a staging area would could reduce potential obstacles emergency 
responders may encounter, increasing response times and saving lives. A 
staging area would allow emergency responders to focus resources on the 
initial incident and not redirect personnel for crowd control at the 
immediate incident scene.
    If possible, would DHS consider incorporating a parent/community 
video and training piece in the Emergency Management Institute 
Independent Study program, suggesting schools incorporate a staging 
area and the importance for parents and other community members to wait 
for a notification and only respond to officially designated staging 
areas?
    I thank you for your time and consideration and the opportunity to 
discuss the challenges we face with school security.
         Attachment 1.--Community Education Council District 31
                             March 9, 2011
    The following resolution was presented to the public at the 
Community Education Council 31 (CEC 31) Calendar Meeting held on March 
7, 2011 at the Petrides Educational Complex, Staten Island, New York. A 
vote was taken and the resolution approved unanimously by voice-vote of 
the CEC members present, as reflected in the Minutes.
RESOLUTION NO. 65--RECOMMENDATION TO IMPLEMENT A CITY-WIDE PUBLIC 
        ADDRESS/FIRE ALARM SYSTEM REPLACEMENT PROGRAM IN NEW YORK CITY 
        SCHOOL FACILITIES
    WHEREAS, many of the New York City public schools' Public Address/
Fire Alarm systems are not adequate for today's ever-increasing demands 
for school safety; and
    WHEREAS, numerous school administrators have requested overhauls of 
Public Address/Fire Alarm systems through Capital Plan Amendment 
requests; and
    WHEREAS, many school administrators have reported deficiencies of 
the Public Address/Fire Alarm systems during critical and non-critical 
situations; and
    WHEREAS, enhancement and/or replacement of such emergency equipment 
will improve each school administrator's ability to notify staff, 
deploy and coordinate resources and effectively alleviate emergencies 
that may occur at a New York City public school facility; and
    WHEREAS, The Public Address/Fire Alarm Replacement Program can be 
funded by reducing each district's yearly Capital Plan fiscal 
allocations by 5 percent to 10 percent. The resulting funds can be 
allotted for 3 or 4 schools in each district to have a Public Address/
Fire Alarm system retrofit yearly; therefore
    BE IT RESOLVED, that Community Education Council 31 requests the 
NYC Department of Education, Division of School Facilities and the NYC 
School Construction Authority implement a city-wide Public Address/Fire 
Alarm System Replacement Program similar to the Boiler Replacement 
Program that currently exists in the Capital Plan.
    Explanation: In this ever-changing environment for school safety, 
it is imperative to have an emergency notification system that 
consistently operates effectively. It is extremely important to provide 
quick communication for emergencies or other important information from 
both a central location and an individual classroom. The Public 
Address/Fire Alarm Enhancement/Replacement Program will provide for an 
improved fire and life safety program for each New York City public 
school.
    APPROVED UNANIMOUSLY by roll call vote of all members present: 9 
YES; 0 NO (Absent for vote: Chadwick).
    PASSED and ADOPTED this 7th Day of March, 2011.
                                          Kathy Baldassano,
                                  Administrative Assistant, CEC 31.
         Attachment 2.--Community Education Council District 31
                            January 8, 2013
    The following resolution was presented to the public at the 
Community Education Council 31 (CEC 31) Calendar Meeting held on 
January 7, 2013 at the Petrides Complex, Staten Island, New York. A 
vote was taken and the resolution approved by the CEC members present, 
as reflected in the Minutes.
RESOLUTION NO. 76--CEC 31 RECOMMENDS THAT DOE INSTALLS ``BUZZER'' ENTRY 
        SYSTEMS WITH VIDEO AND ``PANIC BUTTONS'' AT MAIN ENTRANCES TO 
        NYC PUBLIC SCHOOL BUILDINGS AND CONSIDERS IMPLEMENTING RETIRED 
        NYPD POLICE OFFICERS TO SUPPLEMENT SCHOOL SECURITY PERSONNEL
    WHEREAS, recent concerns have been raised by Council members, 
parents, teachers, students, law enforcement personnel, education 
officials and advocates regarding security in NYC public schools; and
    WHEREAS, current public school security consists of unarmed, 
uniformed New York Police Department (NYPD) school safety agents, with 
most NYC elementary schools having only one (1) school safety agent 
assigned; and
    WHEREAS, current public school entry procedures allow individuals 
to enter school buildings through an unlocked door at the main 
entrance, with the first point of visitor verification at the security 
desk--located beyond the entrance, inside the school building--where 
visitors are required to show identification; and
    WHEREAS, Community Education Council 31 (CEC 31) believes that 
school safety agents should have the opportunity to view a person 
requesting entry before the visitor gains access to any part of the 
building; and
    WHEREAS, CEC 31 believes a ``buzzer'' entry system with video 
camera, video capture for future recognition and ``panic buttons'' 
directly linked to NYPD dispatchers would offer an additional layer of 
security for our schools and provide valuable lead-time to alert 
emergency personnel of a potential critical incident; therefore
    BE IT RESOLVED that CEC 31 requests that the Department of 
Education (DOE) installs ``buzzer'' entry systems with video camera, 
video capture and ``panic buttons'' in NYC public school buildings; and
    BE IT FURTHER RESOLVED that CEC 31 requests that the NYPD and the 
DOE consider implementation of the following proposal designating 
retired NYPD police officers as ``special patrolmen'' to supplement 
current security personnel in NYC public schools.
    A Proposal for the NYPD and DOE to Enhance Security in NYC Public 
School Buildings:
    Recent events have raised concerns about security in schools 
throughout the Nation. Several school districts across the country have 
implemented the use of armed security guards to minimize the threat of 
potential shootings in schools.
    CEC 31's proposal would allow the NYC Department of Education the 
ability to hire retired NYC police officers as armed ``special 
patrolmen''. These ``special patrolmen'' will specifically be assigned 
to enhance school security against potentially violent and armed 
threats and will NOT be involved in routine school disciplinary 
matters. These special patrolmen will have peace officer status.
    The New York City Police Commissioner has the authority to 
designate qualified individuals as ``Special Patrolmen'' under the New 
York City Administrative Code, Section 14-106 (e) which states that 
``the NYC Police Commissioner under the application by any agency or 
public authority may appoint special patrolman for duty performed 
anywhere in the city for the agency or public authority.''
    This initiative will require hiring approximately 300-500 retired 
NYC police officers, who are licensed to carry concealed firearms. The 
NYC Department of Education will grant, in writing, authorization for 
these special patrolmen to carry concealed firearms on school property. 
These retired officers will fall under the direct supervision of the 
NYPD School Safety Division. The retired police officers will be 
assigned on a rotating basis to schools throughout New York City. (The 
program could be expanded to assign a ``special patrolman'' to every 
NYC public school building--approximately 1,000 school buildings.)
Suggested Rules and Regulations for the Program:
  <bullet> Administrative Code section 14-106 mandates that the special 
        patrolmen MUST comply with the orders of the NYPD Commissioner 
        and the rules of the New York City Police Department.
  <bullet> The NYC Department of Education will pay the special 
        patrolmen as an independent contract employee via a 1099. This 
        payment system is similar to the Off-Duty Employment Program 
        that currently exists for active NYPD members.
  <bullet> Retired NYC police officers assigned as special patrolmen to 
        the Department of Education will be required to file a 211 or 
        212 pension waiver, if necessary.
    APPROVED by roll-call vote: 8-1 (8 Yes; 1 No; not present for vote: 
Whitfield)
    PASSED and ADOPTED this 7th Day of January, 2013.
                                          Kathy Baldassano,
                                  Administrative Assistant, CEC 31.
(Addendum letter attached.)
                  ADDENDUM TO CEC 31 RESOLUTION NO. 76
    In addition to Resolution No. 76 which CEC 31 approved on January 
7, 2013, we respectfully request that the DOE implement a policy of 
practice, procedure and training that further enhances existing 
policies established by schools to respond to emergency events.
    Specifically, CEC 31 requests:
  <bullet> That the DOE implement a standardized plan that all schools 
        follow, regardless of a school's location or CFN network, which 
        will ensure a proper response to all types of emergency 
        situations in any school.
  <bullet> That the DOE ensure that each and every school is 
        appropriately training their staff, faculty, and students and 
        all responders within the school's established safety response 
        plan.
  <bullet> That the DOE regularly ensures, with the guidance of trained 
        professionals, that each and every school has a consistent plan 
        which is frequently updated and that the schools providing age-
        appropriate drills & training on the approved plans on a 
        regular basis.
    Further, and of utmost importance, that the DOE immediately ensure 
that each and every one of the schools is equipped with a working 
public address system and alarm/fire alarm system and that any other 
equipment that is a required part of a schools response to dangerous 
situations is updated and continuously checked to ensure that it is in 
proper working order.
    While the DOE insists that all of its schools have emergency 
reaction plans, such as Building Response Teams (BRTs), it is 
imperative that there be uniformity in the training of those who run 
the response protocols throughout the city. All BRT members must be 
uniformly trained on what, where, and when to do their tasks, no matter 
in which borough or district they are located.
    DOE's supervision of a standardized safety plan and consistent 
checks that these plans are in place, trained upon and followed, will 
ensure that everyone involved in reacting to an emergency does so and 
that all safeguards and tools to implement them are always in place.
            Submitted on behalf of the Council Members of CEC 31,
                                      Peter J. Calandrella.
         Attachment 3.--Community Education Council District 31
                             April 11, 2014
    The following resolution was presented to the public at the 
Community Education Council 31 (CEC 31) Calendar Meeting held on April 
7, 2014 at Paulo Intermediate School (IS 75), Staten Island, New York. 
A vote was taken and the resolution approved unanimously by the CEC 
members present, as reflected in the Minutes.
RESOLUTION NO. 83--CEC 31 REQUESTS THAT NYC DEPARTMENT OF EDUCATION 
        EXPAND THE MONITORING OF STUDENT INCIDENTS IN THE ON-LINE 
        OCCURRENCE REPORTING SYSTEM TO IDENTIFY REPEATED INCIDENTS OF 
        BEHAVIOR REQUIRING ADDITIONAL SUPPORT OR INTERVENTION
    WHEREAS, The NYC Department of Education Office of Safety and Youth 
Development maintains the On-line Occurrence Reporting System (OORS) 
for incidents involving individual students such as bullying, 
harassment or fighting, etc.; and
    WHEREAS, Chancellor's Regulation A-832 requires school principals 
to document and investigate incidents in the OORS within 24 hours of 
receiving the report; and
    WHEREAS, The current data capability of the OORS monitors incidents 
involving individual students only within the current school year and 
school level; and
    WHEREAS, Many incidents involving individual students continue with 
the same offender and victim when they advance to the next grade or new 
school; and
    WHEREAS, Transitions from elementary to middle school reveal the 
greatest gap in monitoring incidents, which can defeat establishing a 
safe learning environment for all students; and
    WHEREAS, Alerting and enabling principals with the OORS to 
potential patterns of behavior that stretch across grades and/or 
schools will help identify both student victims and offenders; and
    WHEREAS, Since the On-line Occurrence Reporting System utilizes 
students' Office of Student Information System (OSIS) numbers to ensure 
privacy in identifying student victims or offenders, then if OORS 
identifies identical OSIS numbers involved in separate or multiple 
incidents, patterns of student behavior requiring additional 
intervention or support could be identified; therefore be it
    RESOLVED, That Community Education Council 31 requests that the NYC 
Department of Education expands the monitoring capabilities of the On-
line Occurrence Reporting System at the school level to help promote a 
safer and more inclusive learning environment for all students and 
school communities.
    APPROVED by roll-call vote: 8-0 (8 Yes; 0 No; absent for vote: L. 
Timoney)
    PASSED and ADOPTED this 7th Day of April, 2014.
                                          Kathy Baldassano.

    Mr. Donovan. Thank you, Mr. Reilly.
    Because there are five of you, and we only have 5 minutes 
each, we might do a second round if we don't get through all of 
our questions.
    I thank you all for your testimony.
    I would just like to ask all of you, if you were here in 
the room during the first panel, my question to the panelists 
was that I wasn't sure--the report, the General Accounting 
Report came out and said that there was some gap between the 
Federal resources that are available to all of you, and you 
utilizing them, that people might not have been aware of them.
    Have you guys gotten to use the Federal resources? Is there 
a problem with communication between us, the Federal 
Government, and the localities? Have you seen any obstacles in 
using the Federal resources that are available to all of you? I 
would just open that up to the panel.
    Mr. Maples. So, I will begin with the Federal Homeland 
Security Grant Program. We work directly with FEMA on all those 
initiatives, so we have pretty good communication and certainly 
blast that out to our constituency throughout the State of New 
Jersey. I think there definitely could be better communication 
from some of the Justice and Education programs. As I was 
hearing some of those opportunities, I would like the 
opportunity to be a megaphone for those throughout the State. 
It is something that we are certainly in a position to do with 
our partners in Education, State Police, Attorney General's 
Office, and that is something we are going to follow up on. I 
was actually talking with my chief of staff about that earlier 
based off of the commentary we heard.
    There is opportunity, I think, from the State and local 
level that we have this unique capability to reach directly 
into the local governments and education departments, so we 
will plan on doing that. We are really going to double down on 
our efforts on that.
    Mr. Donovan. I was watching you, Jared. When you heard 
there was $2 billion available, I saw you writing that down.
    Mr. Maples. Yes, you can't miss it.
    [Laughter.]
    Mr. Donovan. Have the rest of you had any experiences, 
whether good or bad, or were you unaware of some of the 
resources that were available to you until today?
    Mr. Castillo. Yes, sir. If I may, this may be a good chance 
to give a shout-out to some of the work that is being done by 
our DHS partners. One of the representatives used to work for 
Jared before the Feds stole him, but they have been very, very 
good in reaching out to us, seeing what we are doing. That has 
been working well.
    If there is some way to maybe streamline that whole Federal 
grant process, that might be helpful, although with the size of 
the bureaucracy, that might be kind-of difficult.
    In addition to that, if there is any way perhaps to get a 
clearinghouse just for those things dealing with school 
violence where they could collect data and analyze it and 
provide that to all the States, anyone who might have a need 
for it, that would be very, very helpful.
    Mr. Donovan. Because one of my other questions was going to 
be if you have good practices, best practices, how were you 
letting other school systems know of your practices that maybe 
they could implement, as well? So maybe that clearinghouse that 
you spoke of could be a good source.
    Major, Mr. Gerity, and Mr. Reilly, do you have any comments 
about the Federal resources and how we can make it more 
accessible to you?
    Ms. Hengemuhle. I think any time money is involved, we all 
should know about it, and I did write down that $2 billion was 
it? Yes, with a ``B''. I think the State Police is always 
looking for Federal grants, State grants, anything to improve 
upon our processes right now. So I am going to go back and 
follow up on that, and follow up with OHSP as well, because 
money helps with a little bit of everything. If we can get it, 
we will do everything we can.
    Mr. Donovan. It has always been our belief to let the 
people on the ground do the work. We should present you with 
and offer and support you with the resources to do that work.
    Mr. Gerity. It may be to your point and a little beyond the 
point. I did hear the COPS Office mentioned earlier, Community 
Oriented Policing Services, and if you will bear with me for 1 
second, I will be brief.
    In the late 1990's, the COPS Office made a 4-year, School 
Resource Officer grant program available. Three years was paid 
by the grant for the cost of assigning a school resource 
officer, which by definition in today's language includes Class 
III officers, paid for the grant for the first 3 years, and the 
fourth year was split between the education entity and the 
community.
    After the initial launch of the grant, after the 4 years 
expired, the grant was not renewed. So we found ourselves where 
we had come up with this terrific community-oriented policing 
program, embedded officers who became adjunct faculty members, 
very attached, role models, mentors to children, but a lot of 
districts loved the program and no one wanted to pay for it or 
could afford to pay for it.
    So just to bring it full circle, I know there have been 
some very limited grant opportunities over the course of the 
years, but they are few and far between. Most of the grant 
monies that seem to come out, or are development of 
initiatives, or lean toward installing technology or training 
programs, there are very few, if any, that financially support 
districts in putting boots on the ground.
    Mr. Donovan. One of the difficulties we have in why people 
are discouraged from Federal grants, they usually have a time 
limit, and you never know if they are ever going to be renewed, 
and 3 or 4 years from now there might be a different issue that 
needs to be addressed with those same resources, and we take it 
away from one and put it to the other. It is always easier for 
the Federal Government to buy hardware for you or help you to 
buy the hardware you need rather than the personnel that you 
could always use.
    Mr. Reilly.
    Mr. Reilly. Thanks. Just real quick, Chairman, thank you. I 
think one of the issues that we have, especially with New York 
City, the largest school district in the country, we have 
schools, we have 1,800 schools in 1,400 buildings. So 400 of 
our buildings have campuses, so they have a shared school 
safety plan.
    Part of the problem with grant funding is a lot of times 
there is a cap on how many people a district can have. Since 
our geographical districts are broken down, like Staten Island 
has its own school district but we are a part of the greater 
New York City district, we have in Staten Island what would 
encompass maybe several towns of school districts. We have 70 
schools, and we serve 60,000 students, just K-8. When we 
incorporate high school, we are talking 75,000 students. So 
sometimes we don't qualify for a grant because it is capped at 
a certain amount of population, and that goes both at the 
Federal and the State level. The State level, we have seen that 
that has happened several times. So maybe if there is a way of 
targeting grants for specific areas in school districts, that 
may actually help.
    Mr. Donovan. Before I yield to my colleague, I just wanted 
to let you know that this committee is known to hold fewer 
hearings than other committees because we actually take the 
information that you give us and do something with it. Don and 
I never wanted to have a hearing for the sake of having a 
hearing because we are in Congress and that is what you are 
supposed to do. So all this information that you are providing 
to us is incredibly valuable, and the difficulties or obstacles 
that you all are experiencing through this process, we will 
take back.
    The folks behind us, the great, talented people behind us 
are memorializing everything you are saying. We will go back 
and work on these issues to try to make this system cleaner, 
better, and more efficient for all of you.
    I now yield to my colleague, Don Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Sitting here listening to the discussion and the surprise 
of the $2 billion that we all were surprised to hear about, me 
included, goes to what I found since coming to Congress. There 
are resources out there, but if you don't know the correct 
question to ask the Federal Government, no one really 
volunteers the information. They will answer it if you come up 
with the right question, but if you don't ask the right 
question, nobody volunteers it. So we find out about a billion 
dollars today, something you probably all would have liked to 
have known a while ago.
    But let me just start with Mr. Castillo and Mr. Maples. One 
of the things that we saw with the Parkland shooting was how 
students really came together and got involved with one voice 
to demand something be done to protect them in schools. If 
nothing else, we have learned that students want to be at the 
table when discussing school safety.
    As each of your organizations works to improve school 
safety, how do you incorporate feedback from students?
    Mr. Maples. I will start, if I could, and just address your 
first comment. One method we found in New Jersey that has 
helped is the non-profit Security Grant Program. I know New 
York, both States have done pretty well over the years. That 
has been a pretty good model through the Department of Homeland 
Security. FEMA runs that program. As far as getting the funding 
out in a coordinated way, if we could replicate that toward 
education, that does bring in multi-facets of the Federal 
Government involved in that one kind of initiative, and that 
includes hardware, sometimes personnel, but hardware, security 
assessments, et cetera. So those are toward non-profits, but if 
we could incorporate that into an education focus, that could 
be helpful as well.
    As far as our engagement with the students, we absolutely 
put a premium on what the student population is saying. When we 
go out and do these active-shooter drills, that is part of the 
feedback loop, making sure we understand what they are doing, 
how they are doing it, the flow of students. One area we are 
also looking to expand into is the technology, whether it be 
updating apps on the phone and getting out to them through 
technology, incorporating the feedback through social media 
networking, making sure they are aware of what we are trying to 
do on the State level, but then also to your point of getting 
the feedback into what they feel would be more secure, being 
able to report the suspicious activity when there are issues.
    So that is what we are doing.
    Mr. Castillo. Yes, we do take the opportunities. Every time 
we go out on an unannounced drill observation, we would mention 
to the superintendent--they would often ask of their staff 
members and teachers who are along with us on a drill to see 
what they say. However, often they will leave out the students, 
and we will ask them to try to reach out to the students to 
find any type of feedback that they may be able to provide, 
because probably many of the students know many of the 
vulnerabilities that are in schools, and maybe we just don't 
hear about them.
    I did have the opportunity to partner with Congressman 
Bonnie Watson Coleman in one of her town hall sessions in 
Trenton. So any chance that we do get, we will speak to anyone 
who will listen, especially with the students. I know OHSP has 
been very, very active in trying to find just the right type of 
app, because that is the way students are communicating. So 
that has our full support on that.
    Mr. Payne. Also feedback from teachers and parents as well. 
OK. Thank you.
    Mr. Maples. Can I add one additional thing, too? As far as 
cybersecurity initiatives, we partnered in that with the 
overall school security. So we have really tried to do a lot of 
outreach through technology programs, STEM, to make sure we are 
reaching out to students, educators, and administrators as 
well.
    Mr. Payne. Thank you.
    Mr. Castillo. If I may also add, in addition to that, with 
the unannounced drill observations, it was usually just police 
officers, members of our office, perhaps a few people from the 
State police, as well as the Office of Homeland Preparedness 
that would observe what is going on with these drills. But what 
we would do is to invite teachers as well for these drills, and 
they would take the perspective of the bad guy or gal walking 
through those halls, and we could actually see the light go on: 
``Oh, this is the reason why we are doing these types of 
drills.'' So that has been very helpful, and we are constantly 
soliciting that.
    Mr. Payne. Thank you.
    Major Hengemuhle, I understand that New Jersey State Police 
have begun to conduct regular unannounced visits to schools. 
Please explain what has been learned from these exercises, or 
are these exercises found to be useful?
    Ms. Hengemuhle. So this was something that Colonel Patrick 
Callahan put into place in the beginning of February. So the 
return on investment, we didn't really get a good feel because 
we have only had a few months to do it. What the Colonel wanted 
us to do, all members of the division, whether during the day 
during work or to and from work, was to go to schools within 
our districts, the ones we go to, in uniform, just to have a 
presence there to talk to the kids, to talk to the students.
    We have gotten very positive feedback on that. But again, 
it was only for a small time frame. So I have been in 
communication with my Lieutenant Colonel and the Colonel to put 
together some formalized training for all of the division so we 
are on spot with Department of Education, as well as the Safety 
in Schools and Security outreach unit. So when Troopers do go 
to these schools, we are all saying the same things. We are 
saying what we are teaching to these kids.
    So we did get positive feedback from the schools that we 
went to. It was unplanned, unannounced, just go in, be a 
presence. As of Friday, we had over 2,500 hours put toward this 
where Troopers--I don't know the hours per Trooper, but over 
2,500 hours from February to the end of the school year.
    Mr. Payne. It has been received well? I mean----
    Ms. Hengemuhle. Yes, positive feedback from some of the 
schools. But again, we are looking into making a division-wide 
training so everybody knows what should exactly take place and 
that we are relaying the exact same information at each school 
within our areas.
    Mr. Payne. It has to do with school safety.
    Ms. Hengemuhle. Yes.
    Mr. Payne. That is what you are going in there for, not any 
other----
    Ms. Hengemuhle. Visibility and school safety, no other 
reasons with this initiative. We go into schools for a lot of 
other reasons, but for this initiative it is just to be a 
presence, visibility.
    Mr. Payne. OK.
    Should we do a second round?
    Mr. Donovan. Yes.
    Just two quick things I wanted to ask. As I said before, we 
learn a lot from these hearings. What have we learned from the 
tragedies that we have recently had in Texas and in Florida, 
and what changes maybe have you guys made in your jurisdictions 
learning from those tragedies that we have experienced?
    The second question to Mr. Reilly, if you could explain to 
us. I read your testimony, and over the weekend I was asking 
parents if you heard something happen at your child's school, 
what would you do? They said we would go to the school. I knew 
that was the wrong answer from reading your testimony. I said 
what if there was a staging area somewhere near the school 
where you could get all the information, you wouldn't block 
emergency vehicles from going, and you will learn everything 
about your child's safety and what was happening at the school? 
They said we would still go to the school.
    So after we answered the first question, I would like you 
to elaborate a little bit on how to encourage families to do 
what you have suggested, which I think is an amazing 
suggestion. But as the father of a 3-year-old, I am thinking I 
might go to my kid's school. So if you could elaborate.
    But if you could first speak to me about some of the 
lessons that we have learned from the tragedies and how we have 
implemented maybe some other practices after those.
    Mr. Maples. So I will be brief so we can go down the row. I 
think one of the biggest pieces that came out post-February 
after Texas is a change in mindset. The normal training 
scenarios don't always work the same exact way. So the answer 
is it may not work in every single situation. So something we 
have really tried to adapt with, again in partnership with the 
State police, education, the SRO Association, is to make sure 
the training is flexible enough to approach as many situations 
as could possibly come up to therefore save life. That has 
definitely been a big issue for us, and that prevention role 
took a real front seat there, getting out ahead of the problem 
before it becomes a problem. We have put a huge premium in the 
State of New Jersey on doing that.
    Again, as the gentleman from New York mentioned, it is 
impossible to get out ahead of every one of them, but we are 
going to do everything we possibly can to do that, and that is 
through a collective approach, again with everybody at this 
table plus mental health, children and families, et cetera. 
That is something we have really focused on. So it is the 
mindset, and then that prevention thing I think that has really 
come out from our side and something we are trying to push out 
from the State side.
    Mr. Castillo. Some of the challenges that we have seen, and 
they have been around for a while, probably one of the most 
glaring issues is the silos, once again with communication. We 
have heard time and time again that information was developed 
on this particular student at one time but, for whatever 
reason, it wasn't shared. So we think the intelligence 
dissemination reports will be a step in the right direction.
    We do have very good communication with members of our 
partners. Again, if I can go back to that school safety 
specialist, pretty much the school resource officers have 
understood that we have got to give police officers special 
training for when they go into the schools. That big piece that 
has been missing has been what are we giving the teachers and 
the school administrators in terms of the security perspective.
    I think back to teachers and folks working in education are 
among the most caring, supportive people I know. They didn't 
sign up for the security piece. So I think if we can kind-of 
let them know those things that they should consider and give 
them that perspective, I think that would be very, very 
important as well.
    Ms. Hengemuhle. I agree that the communication that we have 
with the Department of Education and Homeland Security, we have 
looked at best practices with active shooters and, like I said, 
we just started rolling out some new protocols in July with the 
State Police approach to the active shooter. We would like to 
prevent all casualties at schools. I don't know if 100 percent 
prevent will happen, but if we can lower them--and what you 
said in the beginning, New Jersey is the leading State in 
school security, that actually made me feel very good that that 
came up today and that that is brought up. It is because of the 
collaborative efforts of everybody at this table and everybody 
behind us, and with you especially, both of you, that we are 
able to do that by coming together and working together.
    For me, from the State police, from a training standpoint, 
the better we can train, the more that we can train, training 
the students, training the teachers, getting everybody educated 
could help a little bit in this dilemma right now.
    Mr. Gerity. I will echo everyone's comments at the table, 
and I think it is demonstrating the collaboration and 
cooperation we have here of the individuals sitting in the 
different entities represented. I know in our district, 
Parkland was a different response in our eyes, where it almost 
appears that it is the first time that the students themselves 
stepped up and said enough is enough, we are tired of being 
sitting ducks. Prior to that, it would be the adult community 
that would react, take action, form committees, task forces, 
response plans. But this was a little different that the 
students stepped up.
    So our efforts, and I am sure it is occurring everywhere, I 
don't just speak individually, that we are including students 
in our safety teams, our committees. Every time we meet, we 
bring students in, and we actively engage with students, and 
there is a sharing of information between education and law 
enforcement, so protecting students' records. The school 
administrators will proactively reach out and look at that 
student's involvement in the school community. If it appears 
that they are not involved in the school in some way, shape, or 
form, it may be because they are involved in some outside 
interest, but it is a method of behavioral assessment, if you 
will, to see why that student is not engaged. That may be, as 
you read numerous documentation, an indicator or a flag that 
there are issues there. So we are involving students.
    Mr. Reilly. Can I just touch on the first question first? 
Mr. Gerity just said about student records and safeguarding 
their information, of course, and making sure that we don't 
give out information. Back in 2014, the Community Education 
Council, I wrote a resolution to the New York City DOE. They 
have an on-line occurrence reporting system. That is how they 
keep track of all the incidents in their schools. Whether it is 
an injury, whether it is a bullying incident, whether it is 
someone just fell down the stairs, every incident gets reported 
like that.
    Now, one of the things that I asked them to do is they 
expunge those basically at the completion of the school year, 
and one of the shortfalls that I see with that is it is not 
just identifying, for lack of a better word, the suspect 
student that is committing a harassment or a bullying, but it 
is also doing a disservice to our victims, because when we 
don't allow that information to be shared with the progressive 
grade when they move up and the other teachers and other 
counselors in that grade to support that victim, or even the 
person that we will call the bully, for lack of a better word, 
the actor, we miss the opportunity to provide support or 
guidance.
    It doesn't necessarily mean that it is punitive. It is 
support that is actually going to make them more well-rounded. 
So if we get the opportunity to share that information going 
on, and if we don't do it, we may miss an incident where it 
happened in 3rd grade between two students and they meet up 
again in 6th grade, and now we had the opportunity to stop a 
future incident between them but we missed that because of the 
communication piece and fostering that information.
    Touching on point No. 2, how I try to get the message out 
about parents not rushing up to the school and other community 
members until they are told, I try to tell everybody I run 
into, I try to speak about it everywhere I go. I volunteer. I 
have been doing this for the past several years, giving 
internet safety and cyber bullying assemblies and parent 
workshops and staff professional development.
    I lead with talking about school safety, school security. I 
have been on NY1 talking about school security. The first thing 
I talk about is don't rush up to the school. In my prior life, 
before becoming a professional volunteer in the schools, I was 
a lieutenant in the New York City Police Department. So I 
understand how those seconds getting to an incident can be 
deadly, and the more time we save in the fastest direction to 
the incident will save lives, and that is how I do it.
    Mr. Payne. Thank you, Mr. Chairman.
    I have a question for the entire panel in terms of the gun 
reform that we have just seen passed in New Jersey. We just 
passed a series of gun reform laws, making New Jersey the 
leader on this issue. Do you believe that the impact of this 
legislation--what do you believe the impact of this legislation 
will be on school security?
    Mr. Maples. One other important piece to this is the Crime 
Gun Information Sharing piece, as far as the State Police and 
Attorney General's Office security, making sure those are 
connected to other States. That is part of this legislation.
    As far as the gun legislation that has happened, it is 
certainly something--anything that can help and remove threats 
is a plus from our perspective. I will tell you that there have 
been multiple arrests. I don't want to get into the specific 
number publicly, but the State of New Jersey has made arrests 
after some of the legislation that has been passed previously, 
and I think that it will only happen after some of the more 
recent legislation. We do know that there have been incidents 
prevented based off of the ability to make arrests off of 
those.
    Mr. Payne. Thank you.
    Mr. Castillo. I echo what Director Maples mentioned. Our 
focus is basically at the door, keep those weapons and other 
things outside of the school. Any way that would happen, we see 
that as a plus. It has been very helpful in terms of what 
Jared's office has been doing in terms of trying to get these 
suspicious activity reports that will allow law enforcement to 
take action and identify these folks, whether or not they own 
them or have access to weapons. So that has been very, very 
helpful as well.
    Mr. Payne. Well, just on that point, that is something I 
like to point out when we have been having this whole 
discussion around gun reform and safety in schools, that we are 
very positive about the move that these young people have taken 
their future into their own hands and are concerned about gun 
violence and safety in school. But I like to point out that in 
other communities, as you state, to keep the guns outside of 
the school, that is a problem for other students, is getting to 
and from school safely. So we have to make sure that we are 
looking at the entire issue because, yes, safety at school has 
become the paramount issue over the course of the last several 
years, but there is a question of children's safety between 
school and home. So we want to make sure that we encompass the 
whole issue.
    Major.
    Ms. Hengemuhle. In talking about the children getting to 
and from school, I think that the initiatives that are taught 
during school help the faculty and the students in their 
everyday lives. Some of the programs that we conduct for 
younger students, we do New Jersey Drive, we do Internet 
Safety, we do Stranger Danger, we have an Explorer program. So 
we have a lot of programs that are conducted while the students 
are at school but will be beneficial for them coming to and 
from school. That is the most important thing. There are 
dangers outside the school, we all know that. So any 
educational piece that we can bring to the students, to the 
faculty is going to benefit going to and from the school as 
well.
    Mr. Payne. Right. Specifically speaking on the gun issue.
    Ms. Hengemuhle. On the gun issue.
    Mr. Payne. Yes.
    Ms. Hengemuhle. What we can do--you talked about New Jersey 
being the State leader in gun reform. Again, whatever can take 
place to reduce gun violence in the State of New Jersey and the 
United States is in the right direction.
    Mr. Payne. Thank you.
    Sir.
    Mr. Gerity. Sir, with all due respect, I don't have an 
answer to that question. I am obviously subservient to a board 
of directors, and for me to take a position without addressing 
the issue with them would be inappropriate.
    Mr. Payne. OK.
    Sir.
    Mr. Reilly. I am actually not 100 percent familiar with the 
New Jersey law, but I can tell you New York State has some 
similar laws. I will say this: When they passed the New York 
State SAFE Act, I had a little issue with it because I was a 
retired lieutenant from the New York City Police Department, 
and I tried advocating to the legislators, telling them that 
there is something in the law that you just made me a felon. 
You made me a felon because I had a 15-round magazine in my 
Glock, but I was a retired police officer. Thankfully, a few 
years later they corrected that. But unfortunately, when they 
rushed it through--so I am hoping New Jersey didn't rush it 
through, and if there are any concerns that would actually need 
to be addressed, I would hope they would do it quickly and not 
let us wait, because unfortunately sometimes in our haste to 
get things done, we don't look at the full picture, and that is 
even when I am talking about school security protocols as well. 
There are many times when people make suggestions at our school 
board meetings, at our CEC meetings, and we try and have a 
discussion about it and show where maybe one view doesn't 
support the actual protocol taking place.
    Like one instance when talking about school security is 
when you hear a school is in lockdown, the first thing you 
think about is a school shooting. We actually had a school that 
was put on lockdown because a deer ran through a plate-glass 
window. So these all-hazard approaches, that is what the 
community needs to know about when it comes to the school 
security aspect.
    But I am willing to research the New Jersey State law, and 
if we can take some tips from there and advocate in New York as 
well, I am open to that. So, thank you.
    Mr. Payne. Thank you.
    Mr. Chairman.
    Mr. Donovan. Well, I thank all of our witnesses for their 
testimony today and for my colleague's questions. The Members 
of the committee, as I told the other panel, may have some 
questions, even Members who aren't here, additional questions 
for our witnesses, and I would ask that you respond to those in 
writing.
    Pursuant to Committee Rule VII(D), the hearing record will 
remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Donald M. Payne, Jr. for Jason Botel
    Question 1a. In February, President Trump tweeted that arming 
``educators and other trusted people who work within a school'' would 
help protect students.
    Has the Department of Education examined potential impacts to 
school safety and students if teachers become armed?
    Answer. On March 12, 2018, the President created the Federal 
Commission on School Safety (``FCSS''). https://www.whitehouse.gov/
briefings-Statements/president-donald-j-trump-taking-immediate-actions-
secure-schools. The President specifically tasked the FCSS to ``develop 
a process to evaluate and make recommendations on school safety'' and 
noted that ``[t]he commission will study and make recommendations on 
the following areas of focus: . . . A plan for integration and 
coordination of Federal resources focused on prevention and mitigation 
of active shooter incidents at schools.'' The provision of school 
security and the training of school personnel in that regard is 
inherently a State and local matter. As noted in the President's 
statement creating the FCSS, the role of the Federal Government and the 
FCSS in particular is to ``make recommendations on school safety'' 
within the framework of what State and local jurisdictions have 
crafted.
    Accordingly, the FCSS has been studying, among many other things, 
the training of specially qualified school personnel such as school 
resource officers (SROs), school security officers (SSOs), 
administrators, and staff. Throughout the FCSS' study of existing 
programs that arm school personnel, there has been a consistent 
emphasis on the efficacious deterrent posed by highly trained and 
voluntarily armed school personnel. The FCSS has learned that in almost 
every State SROs, who are sworn law enforcement officers, are armed. 
Many States also permit SSOs, non-sworn security officers, to be armed. 
Ten States currently allow school staff to possess or have access to 
firearms. No State mandates the arming of school staff. The 10 States 
referenced permit specially-trained school staff to carry weapons upon 
meeting the State training and licensing requirements. It is estimated 
that several hundred school districts provide school staff access to 
firearms. All programs exercising the option to allow staff to carry 
weapons require significant training, among other qualifications, in 
order to participate. Examples of such programs include the Texas 
School Marshal Program, the South Dakota School Sentinel Training 
Program, and the recently announced Alabama Sentry Program.
    On August 1, 2018, the Department of Justice led a FCSS field visit 
to Arkansas's Lake Hamilton School District where the FCSS heard about 
the challenges small rural school districts face when they have lengthy 
police response times. As Superintendent Steve Anderson said, ``While 
we are blessed to have excellent law enforcement officers . . . because 
of where we're located, the last two sheriffs here in Garland County 
told me we could expect 20 to 30 minutes wait time if an active shooter 
situation happened on campus before an officer could be here. We're not 
willing to take that chance. We need someone to protect our kids.'' The 
Commission has maintained a livestream of the field visit at: https://
www.youtube.com/watch?v=CAvkyAYMFSE&feature=youtu.be. The Parkland 
school shooting, for example, lasted only about 7 minutes.
    In the 1990's, the Lake Hamilton School District was one of a small 
number of public school districts in Arkansas with Commissioned 
Security Officers (CSO) holding a license through the Arkansas Board of 
Private Investigators and Private Security Agencies. In 2015, the CSO 
license was changed by action of the Arkansas General Assembly. What 
used to be the CSO license was changed to the new Commissioned School 
Security Officer (CSSO) License, through Act 393 of 2015 (Ark. Code 
Ann. 1A17-40-330 et seq). The use of CSSOs in a school district must 
be approved by the superintendent. CSSOs can be administrators, 
faculty, or staff and must pass a standard background check and undergo 
extensive training. In its preliminary report dated July 1, 2018, the 
Arkansas School Safety Commission, after extensive study, reaffirmed 
the deterrent effect that such practices have on school violence. 
http://www.arkansased.gov/public/userfiles/Communications/
School_Safety/Safe_School_Commission_Preliminary_Report_July_1_2018.pdf.

    Question 1b. Is the Department of Education making plans to arm 
teachers in the classroom?
    Answer. The Department of Education is not making plans to arm 
teachers in the classroom because this is a function appropriately 
reserved for the States. The FCSS, however, is reviewing existing 
State-level initiatives that enable highly qualified school personnel 
to access firearms under certain circumstances. The administration 
firmly believes that arming highly qualified and rigorously trained 
school personnel may help prevent violence at our schools and in our 
classrooms.
    Question 2. As I mentioned in my opening statement, I am concerned 
about safety for children beyond the traditional classroom setting. 
Many children experience safety threats on their way to school, which 
is cause for concern, as these threats to their safety impact their 
ability to learn and excel in school. What is the Department of 
Education doing to combat threats to our children that exist beyond 
school grounds?
    Answer. Part of a comprehensive and effective emergency management/
school safety plan is the consideration of safe zones of passage for 
students. One of the creative aspects of the Student Success and 
Academic Enrichment (SSAE) program, administered by the Department 
under Title IV, Part A of the Elementary and Secondary Education Act of 
1965, is that districts have the flexibility to use funds for 
activities that are coordinated with other school and community-based 
services and programs. Title IV, Part A funds can be used for programs 
that may be conducted in partnership with businesses, nonprofit 
organizations, community-based organizations, or other public or 
private entities with a demonstrated record of success in implementing 
these types of activities.
    The Department continues to offer technical assistance to States, 
districts, and schools in how to best plan and implement activities for 
student safety in going to and returning from school through sharing of 
practices and trainings through the Readiness and Emergency Management 
for Schools Technical Assistance Center. This planning should be a part 
of a comprehensive school safety and emergency management plan.
 Questions From Ranking Member Donald M. Payne, Jr. for Alan R. Hanson
    Question 1a. In February, President Trump tweeted that arming 
``educators and other trusted people who work within a school'' would 
help protect students.
    Has the Department of Justice examined potential impacts to school 
safety and students if teachers become armed?
    Answer. Response was not received at the time of publication.
    Question 1b. Is the Department of Justice making plans to arm 
teachers in classrooms?
    Answer. Response was not received at the time of publication.
    Question 2. As I mentioned in my opening statement, I am concerned 
about safety for children beyond the traditional classroom setting. 
Many children experience safety threats on their way to school, which 
is cause for concern, as these threats to their safety impact their 
ability to learn and excel in school. What is the Department of Justice 
doing to combat threats to our children that exist beyond school 
grounds?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Donald M. Payne, Jr. for Robert Kolasky
    Question 1a. In February, President Trump tweeted that arming 
``educators and other trusted people who work within a school'' would 
help protect students.
    Has the Department of Homeland Security (DHS) examined potential 
impacts to school safety and students if teachers become armed?
    Question 1b. Is DHS making plans to arm teachers in classrooms?
    Answer. The Department of Homeland Security has not examined the 
potential impacts to school safety and students if teachers become 
armed and is not making plans to arm teachers in classrooms.
    Question 2a. Following the deadly school shooting in Parkland, 
Florida, DHS established a Department-wide Executive Steering Committee 
tasked with directing DHS's school security efforts.
    Which components are represented on this steering committee?
    Answer. Following the October 1, 2017, mass shooting incident in 
Las Vegas, Nevada, the Department established a Soft Targets and 
Crowded Places (ST-CP) Security Executive Steering Committee (ST-CP 
ESC) to coordinate Department efforts with respect to the security of 
soft targets and crowded places, identify opportunities to enhance 
these efforts, and ensure Departmental unity of effort in this area. 
The ST-CP ESC is comprised of senior executive-level representation 
from Departmental components and offices engaged in ST-CP security 
activities, including the National Protection and Programs Directorate 
(NPPD), Office of Civil Rights and Civil Liberties, Office of 
Partnership Engagement (OPE), Federal Law Enforcement Training Centers, 
Science and Technology Directorate, Transportation Security 
Administration, Federal Emergency Management Administration (FEMA), 
U.S. Coast Guard, U.S. Secret Service, Office of Policy, Countering 
Weapons of Mass Destruction Office, Office of Operations and 
Coordination, U.S. Immigration and Customs Enforcement, U.S. Customs 
and Border Protection, Office of General Counsel, Office of Legislative 
Affairs (OLA), Office of Public Affairs (OPA), Privacy Office (PRIV), 
U.S. Citizenship and Immigration Services, and the Office of 
Intelligence and Analysis.
    To coordinate work across the Department on specific topics that 
fall within the ST-CP security realm, the ST-CP ESC is authorized to 
establish working groups. Earlier this year, the ST-CP ESC established 
a working group focused on school security. The School Security Working 
Group is co-led by FEMA, OPE, and NPPD, and includes representatives 
from most of the organizations that are part of the ST-CP ESC.
    Question 2b. Has the Steering Committee made any recommendations? 
If so, please describe. Please provide copies of any written 
recommendations of the steering committee.
    Answer. At the direction of the Secretary, the ST-CP ESC School 
Security Working Group developed an action plan detailing on-going and 
future activities the Department will perform to help enhance school 
security. Departmental activities described in the plan fall within 
three lines of effort:
  <bullet> Education and Community Awareness.--The Department engages 
        school administrators, teachers, students, parents, and other 
        stakeholders across the K-12 and higher education communities, 
        as well as law enforcement and other first responders who serve 
        those communities, to raise awareness, communicate best 
        practices, and promote no-cost/low-cost security measures.
  <bullet> Capacity Building, Training, and Exercises.--The Department 
        directly helps schools enhance their security through capacity-
        building activities, such as the provision of training, 
        exercises, workshops, and grant funding for schools to 
        participate in those capacity-building activities.
  <bullet> Early Warning.--The Department works with the academic and 
        law enforcement communities to establish and implement 
        processes that increase the likelihood of individuals 
        identifying and reporting concerning behavior or other signs of 
        pre-attack planning, as well as providing schools and local law 
        enforcement with the means to address potential threats before 
        they are realized.
    Examples of specific school security activities the Department has 
taken since the establishment of the School Security Working Group 
include the issuance of K-12 School Security: A Guide for Preventing 
and Protecting Against Gun Violence (2nd ed., 2018), providing schools 
with a means to assess their current security posture and identify 
options for consideration from among potential preventive and 
protective measures that can help the school address the threat of gun 
violence. The Department also recently issued the Enhancing School 
Safety Using a Threat Assessment Model--An Operational Guide for 
Preventing Targeted School Violence, which provides schools and 
communities with a framework to identify students of concern, assess 
their risk for engaging in violence, and identify intervention 
strategies to mitigate that risk.
    As the Department is only one part of the larger Federal community 
working to enhance school security, we also are collaborating closely 
with Congress, the White House, and other Federal departments and 
agencies to coordinate efforts in this arena through the Commission. 
The activities set forth in the DHS School Security Action Plan will 
help enable the Federal Government to meet the goals established for 
the Commission and will contribute to the development of the Commission 
Report to the President in the fall of 2018.
    Question 3. Though certain DHS preparedness grants can be used for 
school security activities, DHS does not make these funds available to 
public schools directly. Instead, State and local recipients have to 
identify school security as a priority. What percentage of DHS 
preparedness grant funds are used for school security activities?
    Answer. FEMA notes that school security accounts for about 0.07 
percent of preparedness grants (using 2007-2017 totals). Based on the 
Biannual Strategy Implementation Reports (BSIR) for fiscal years 2007-
2017, FEMA has provided a total of $141,608,502,068.85 in preparedness 
grant funding. Of that amount, $98,396,943.16, or 0.07 percent, has 
been used for school security activities.
    Question 4. As I mentioned in my opening statement, I am concerned 
about safety for children beyond the traditional classroom setting. 
Many children experience safety threats on their way to school, which 
is cause for concern, as these threats to their safety impact their 
ability to learn and excel in school. What is the National Protection 
and Programs Directorate doing to combat threats to our children that 
exist beyond school grounds?
    Answer. The school security guidance developed by NPPD and recently 
issued by the Department recommends that each school have a security 
team that is formally organized and that includes representation from 
district/school administrators, teachers, facility operations 
personnel, administrators, counselors, students, parent organizations, 
mental health groups/agencies, police, fire departments, and emergency 
medical services. The school security team should work with local law 
enforcement to ensure that students are safe when they leave school 
grounds.
    The Department also recommends the development of a ``community of 
interest'' of teachers, social workers, counselors, behavioral 
therapists, and law enforcement organizations in the local area, which 
can create a network for the common purpose of enhancing the safety of 
students and the security of schools. For example, in Cincinnati, four 
city school districts and one parochial school have partnered with the 
Greater Cincinnati Fusion Center to participate in their Intelligence 
Liaison Officer program. This program provides local agencies, first 
responders, and school administrators and teachers with an improved 
ability to recognize threat indicators and report suspicious activity 
to law enforcement organizations through the Greater Cincinnati Fusion 
Center and the Ohio Fusion Center Network. Additionally, these school 
districts and parochial school have collaborated with the U.S. 
Department of Homeland Security to develop the Greater Cincinnati Safe 
and Secure Schools Initiative. This initiative facilitates information 
sharing and technical assistance--including Department-supported 
vulnerability assessments of schools--between schools, school 
districts, State and local government organizations, and the Federal 
departments that support school safety in and around Cincinnati. 
Relationships such as those created by the Intelligence Liaison Officer 
Program and the Safe and Secure Schools Initiative provide teachers and 
administrators with the resources and skills to identify potential 
issues and work to resolve them through counseling or other forms of 
available help to prevent delinquent behavior or violence that could 
result if an issue goes unresolved.
    While NPPD supports a number of activities that combat threats to 
our children beyond school grounds, it is by no means the only entity 
within the Department performing such activities. For instance, the 
Department's Transportation Security Administration engages school 
districts and transportation providers on a variety of school bus 
security activities.
    While TSA's mission space is counter-terrorism in the 
Transportation Sector, TSA does work collaboratively with providers of 
student transportation in order to mitigate the potential of terrorists 
or home-grown violent extremists seeking to threaten school buses for 
their malevolent purposes. TSA also works directly with the National 
School Transportation Association, the National Association of State 
Directors of Pupil Transportation Services, and the National 
Association for Pupil Transportation, as well as the Illinois 
Association for Pupil Transportation, to name a few, to share 
information about threat recognition and awareness. These security 
efforts between both Federal and State level representatives as well as 
transportation operator stakeholders in the private sector have 
potential safety implications that are a benefit to students in these 
systems.

                                 <all>
</pre></body></html>
